<html>
<title> - H.R. 1576 AND H.R. 1772</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


 
                        H.R. 1576 AND H.R. 1772

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 26, 2001

                               __________

                           Serial No. 107-55

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


74-155              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 26, 2001....................................     1

Statement of Members:
     Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     5
        Prepared statement on H.R. 1772..........................     7
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement on H.R. 1576 and H.R. 1772............     3
     Udall, Hon. Mark, a Representative in Congress from the 
      State of Colorado..........................................    12
        Prepared statement on H.R. 1576..........................    14

Statement of Witnesses:
    Bschor, Dennis, Director of Recreation, Heritage, and 
      Wilderness Resources, Forest Service, U.S. Department of 
      Agriculture................................................     7
        Prepared statement on H.R. 1576 and H.R. 1772............     8
    Duncan, Sara, Coordinator of Intergovernmental Affairs, 
      Denver Water Board, Denver, Colorado.......................    42
        Prepared statement on H.R. 1576..........................    42
    Newberry, James L., County Commissioner, Grand County, 
      Colorado...................................................    27
        Prepared statement on H.R. 1576..........................    29
    Sill, Web, Commissioner, Gilpin County, Colorado.............    33
        Prepared statement on H.R. 1576..........................    36
    Smith, Steven W., Associate Southwest Regional 
      Representative, Sierra Club, on behalf of the Colorado 
      Wilderness Network.........................................    38
        Prepared statement on H.R. 1576..........................    40


     H.R. 1576, THE ``JAMES PEAK WILDERNESS, WILDERNESS STUDY, AND 
  PROTECTION AREA ACT''; AND H.R. 1772, TO PROVIDE FOR AN EXCHANGE OF 
   CERTAIN PROPERTY BETWEEN THE UNITED STATES AND EPHRAIM CITY, UTAH

                              ----------                              


                        Thursday, July 26, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.H.R. 1772

 STATEMENT OF HON. SCOTT MCINNIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. McInnis. The Committee will come to order. The 
Subcommittee on Forests and Forest Health will come to order. 
Today, the Subcommittee on Forests and Forest Health will 
consider H.R. 1772, a bill to provide for exchange of certain 
property between the United States and an area in Utah, and 
H.R. 1576, the James Peak Wilderness Study and Protection Area 
Act.
    I ask unanimous consent that Representative Chris Cannon 
have permission to sit on the dais and participate in the 
hearing. Mr. Cannon took one elevator, and I took the other, 
and we made a little bet as to who would be here first. His 
elevator is obviously not working.
    [Laughter.]
    Mr. McInnis. So I would expect him here momentarily.
    Under Committee Rule 4(g), the Chairman and the Ranking 
Member can make opening statements. If any other members have 
statements, they can be included in the hearing under unanimous 
consent. So we are going to wait for--all right; I have four 
pages to read. This is exciting.
    The first bill for consideration is H.R. 1772. The 
legislation would allow Ephraim City to acquire 0.7 acres of 
land located in the Manti-LaSal National Forest. Mr. Cannon, I 
won the bet.
    [Laughter.]
    Mr. McInnis. To repair some of the city's administrative 
office buildings, and in exchange, the city would convey 3.2 
acres of its land to the Forest Service for a seed warehouse 
for wild land restoration purposes. I understand that some may 
have been process oriented; there may be some with process-
oriented concerns with this bill, but we ought to be able to 
work that out. I do not see much disagreement in this bill. I 
think we can move rather rapidly.
    The second bill is H.R. 1576, the James Peak Wilderness, 
Wilderness Study and Protection Area, introduced by my friend 
and colleague from Colorado, Congressman Udall. At the outset, 
let me say I admire the energy and the effort that Mr. Udall 
has put forth and that his staff has put into this bill as 
well, even though I have serious substantive concerns with the 
bill as introduced. I am hopeful we can overcome these 
differences and move this bill forward. If we cannot overcome 
these differences, the bill does not move. And to this point, 
Mr. Udall and I have had a number of meetings, and I think that 
this can be resolved satisfactorily to all the parties, and 
later on, I will speak about some compromise language that I 
have incorporated which I think, actually, Mr. Udall, goes back 
to your position in February. So I think we are going to be 
able to work this out.
    But for those of you who are not aware, I do have a special 
interest in this special piece of legislation, because the 
majority of land impacted by the proposal actually falls within 
the borders of my Congressional district. Now, just for the 
guests in here, the Third Congressional District of Colorado, 
which geographically is larger than the State of Florida, 
contains almost all of the mountains of Colorado. The area is 
truly spectacular, and there is no denying that it deserves 
special protection, and that is something that all the sides 
agree upon.
    Where there has not been agreement over the years, however, 
is on the question of--wow, that helped out--how and under what 
designation the James Peak area should be protected. While 
Gilpin, Clear Creek and Boulder Counties, all in Mr. Udall's 
district, have long supported wilderness designation for those 
lands within the borders of their counties, Grand County, which 
is in my district, has not. Grand County's opposition is a 
primary reason this bill did not progress in either the 105th 
or 106th Congresses. I should tell the Committee as the 
Committee knows, probably, based on my history and for our 
guests today that one of the fundamental requirements for a 
piece of wilderness bill, one, either for me to sponsor or for 
two, to move through this Committee is a requirement that the 
locally-elected officials support the concept of the bill, and 
I think we have got a compromise that we can support.
    But we will hear in a few moments that Grand County is 
prepared to support the bill if certain key modifications are 
made. With the Grand County Commissioners' help, I have drafted 
a compromise plan. The language I would offer is an amendment 
to Mr. Udall's bill at the Subcommittee markup that would 
designate those portions of the James Peak area in Grand County 
as a special protection area, a designation that would 
significantly restrict motorized and mechanized use while 
prohibiting timber harvesting as well as mineral exploration in 
the area; but at the same time, the designation would better 
accommodate the needs and desires of the local community, 
allowing, for example, Rogers Pass Trail and the Continental 
Divide Trail to be allowed for the use of mountain bikers.
    As for the rest of the James Peak landscape, the compromise 
plan would designate those segments in Boulder, Clear Creek and 
Gilpin Counties wilderness, something that the leaders of these 
respective counties have said that they clearly would like, and 
we will hear from one of those leaders, Mr. Sill, in a moment. 
My friend Mr. Newberry from Grand County will testify more 
about the details of our compromise proposal in a few minutes. 
So let me make one final point about our plan specifically: as 
introduced, Mr. Udall's bill would designate 8,000 acres within 
the protection area as a wilderness study area, something the 
Grand County Commissioners have flatly and I think justifiably 
said they cannot and will not support. The commissioners 
correctly point out that there is no practical or functional 
difference between wilderness and wilderness study area on the 
ground, and that is correct.
    At the end of the day, if the county commissioners cannot 
support it, I cannot either, which means the bill does not move 
out of this Committee, especially since these commissioners 
have offered an alternative proposal which would create 
substantial safeguards for the area. Even the local Forest 
Service district ranger says that he opposes a proposed 
wilderness study area designation.
    In the final analysis, if Mr. Udall and my friends in the 
environmental community will support the compromise proposal I 
have crafted, which, by the way, was built on discussions with 
Mr. Udall; with the county commissioners and with people in the 
environmental community, a proposal which would provide 
substantial protections for this awe-inspiring area, I will do 
everything I can to see that this bill makes it through the 
House of Representatives before the end of the year. If that 
type of support does not emerge, as I said previously, the fate 
of the James Peak bill is uncertain at best, although I 
clarified it by saying it was certain: it is not moving out of 
the Committee.
    Negotiations on this legislation have taken place over 
several years, and we have never been closer to reaching an 
agreement than we are today. I hope in the coming days, we can 
overcome these last obstacles and get this bill through 
Congress and to the President. I look forward to hearing the 
testimony of my colleagues as well as other witnesses.
    [The prepared statement of Mr. McInnis follows:]

  Statement of the Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    Today the Subcommittee on Forests and Forest Health will consider 
H.R. 1772, a bill to provide for an exchange of certain property 
between the United States and Ephraim City, Utah, and H.R. 1576, the 
``James Peak Wilderness, Wilderness Study, and Protection Area Act''.
    The first bill up for consideration is H.R. 1772. This legislation 
would allow Ephraim City to acquire .7 acres of land located in the 
Manti-LaSal National Forest to repair some of the City's administrative 
office buildings and, in exchange, the City would convey 3.2 acres of 
its land to the Forest Service for a seed warehouse for wildland 
restoration purposes. I understand that some may have process-oriented 
concerns with this bill, but I'm confident that we'll be able to work 
those out to everyone's satisfaction.
    The second bill being considered is HR 1576, the James Peak 
Wilderness, Wilderness Study Area, and Protection Area Act introduced 
by my friend and colleague from Colorado, Congressman Udall. At the 
outset, let me say that I admire the energy and effort Mr. Udall and 
his staff have put into this bill, even though I have some serious 
substantive concerns with the bill as introduced. I'm hopeful that we 
can overcome these differences and move this bill forward.
    For those not aware, I have a special interest in this particular 
piece of legislation, that's because the majority of the land impacted 
by the proposal actually falls within the borders of my Congressional 
District. The area truly is spectacular; there's no denying that it 
deserves special protection. That's something all sides agree on.
    Where there hasn't been agreement over the years, however, is on 
the question of actually how, and under what designation, the James 
Peak Area should be protected. While Gilpin, Clear Creek and Boulder 
Counties, all in Mr. Udall's District, have long supported wilderness 
designation for those lands within the borders of their counties, Grand 
County, in my District, has not. Grand County's opposition is the 
primary reason that this bill didn't progress in either the 105th or 
106th Congresses.
    But today, as we'll hear in just a few moments, Grand County is 
prepared to support the bill if certain key modifications are made. 
With the Grand County Commissioners help, I have drafted a compromise 
plan, language I would offer as an amendment to Mr. Udall's bill at 
Subcommittee markup, that would designate those portions of the James 
Peak area in Grand County as a Special Protection Area, a designation 
that would significantly restrict motorized and mechanized use, while 
prohibiting timber harvesting as well as mineral exploration in the 
area. But at the same time, the designation would better accommodate 
the needs and desires of the local community, allowing, for example, 
Roger's Pass Trail and the Continental Divide Trail to be looped for 
the use of mountain bikers.
    As for the rest of the James Peak landscape, the compromise plan 
would designate those segments in Boulder, Clear Creek and Gilpin 
Counties Wilderness, something that the leaders of these respective 
communities have said very clearly that they want. And we'll hear from 
one of those leaders, Web Sill, in just a moment.
    My friend James Newbury from Grand County will testify more about 
the details of our compromise proposal in a minute, so I'll only make 
one final point about our plan specifically. As introduced, Congressman 
Udall's bill would designate 8,000 acres within the Protection Area as 
a Wilderness Study Area, something that the Grand County Commissioners 
have flatly said they cannot and will not support. The Commissioners 
correctly point out that there is no practical or functional difference 
between Wilderness and Wilderness Study Areas on the ground. And at the 
end of the day, if my County Commissioners can't support it, I can't 
either in this case - especially since these Commissioners have offered 
an alternative proposal that would create substantial safeguards for 
the area. Even the local Forest Service District Ranger has said that 
he opposes the proposed WSA designation.
    In the final analysis, if Mr. Udall and my friends in the 
environmental community will support the compromise proposal I have 
crafted, a proposal which would provide substantial protections for 
this awe-inspiring area, I'll do everything I can to see to it that 
this bill makes its way through the House of Representatives before the 
end of the year. If that type of support doesn't emerge, the fate of 
the James Peak bill is uncertain at best. Negotiations on this 
legislation have taken place over several years and we've never been 
closer to reaching an agreement than we are today. I hope that in the 
coming days we can overcome these last obstacles and get this bill 
through Congress and to the President.
    I look forward to hearing the testimony of my colleague, as well as 
our other witnesses today.
                                 ______
                                 
    Mr. McInnis. Mr. Inslee is not in, so I will reserve his 
comments. I am going to give you, Mr. Udall, comments when we 
get to your bill.
    Before we begin, I want to take the prerogative of the 
Chairman and read an article of a situation occurring as we 
speak right now in Colorado, an article which we have discussed 
in this Committee: ``The off-again, on-again Mad Creek fire 
near Steamboat Springs grew Wednesday, yesterday, from 70 acres 
to 300 acres in a wilderness area where high winds downed 
20,000 acres of trees in 1997. `The fire is still within the 
boundary we set a few weeks ago,' said Punky Moore, who now 
works with officials at the Rout National Forest.' The fire is 
burning intensely and spreading rapidly. We have one crew of 20 
hotshot fighters on the perimeter and two more on the way.''
    ``Lightning on July 8 started the Mad Creek fire about 11 
miles north of Steamboat. The flames were doused by rains last 
week and revived in this week's hot, dry weather. Last 
Wednesday, the fire was moving southeast in the strong 
afternoon winds. The fire is now running, and it is intense. 
The 3,000 acre containment area in the wilderness area includes 
1,000 acres of dead trees from the blowdown. The high volume of 
dry fuel raised the threat of a blowup.'' And I might add that 
it was a blowup that kill four firefighters a week and a half 
ago.
    ``The use of mechanical devices, including power tools and 
helicopters, is banned in a wilderness area, but because of the 
risks of fire exploding inside,'' i.e., a blowup, 
``firefighters have permission to use power saws to fell dead, 
standing trees. If the fire spreads further, forest supervisor 
Mary Peterson has okayed the use of helicopters only to drop 
off firefighters and tote water buckets. There will be no 
slurry bombers.'' They will not allow slurry bombers or heavy 
equipment.
    Ironically, the next sentence in this article is: ``Fire 
safety is our highest priority,'' that being said despite the 
fact that they have just denied slurry bombers the ability to 
go in and control this fast-spreading fire.
    Back to this: ``firefighter safety is our highest priority, 
and we won't put them in a blowdown, because there is too much 
dead timber, and it's too dangerous,' said the Rout National 
Forest spokesman.'' I will skip a little bit here.
    ``In Steamboat, smoke from the blaze was visible, and 
residents were very wary of the risk. We're monitoring and 
reassessing it every day.'' So my point in bringing this up 
today is that here, we have got the extremes of a wilderness 
being put to the detriment a week and a half after we have lost 
four firefighters, and now, we are prohibiting slurry bombers 
from going in there and trying to contain this fire, which is 
not far from Steamboat, and I can tell you that we were on the 
phone this morning with the Forest Service supervisor demanding 
that slurry bombers be allowed to stand by, especially if there 
is any kind of threat whatsoever to firefighters to get in 
there and drop that slurry and get this situation under 
control.
    We will go back now to the regular meeting, and Mr. Cannon, 
what I am going to do today is to take your bill first. That is 
not very controversial, as I see it. We can go ahead and get 
you up and out. So if you would like to go ahead and make a 
statement, you may proceed.

 STATEMENT OF HON. CHRIS CANNON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cannon. Thank you very much, Mr. Chairman.
    I appreciate your holding this hearing today on H.R. 1772, 
the Ephraim City Land Conveyance Bill. The bill will effect a 
land conveyance from the United States Forest Service to the 
City of Ephraim, Utah. Ephraim was founded in 1854 by American 
and Scandinavian pioneers. These settlers transported rocks 
into the valley and constructed a secure fort. The secure fort 
drew many other settlers and eventually evolved into what is 
now the modern City of Ephraim.
    The administrative buildings of Ephraim were built in the 
1930's with a rock and mortar foundation. Unfortunately, the 
foundations are crumbling; in fact, one part of the city 
office, the floor slopes approximately six inches over a 20-
foot span. For the past 5 years, the city has been looking into 
obtaining better city offices to house the legislative, 
administrative and public safety functions and staff of the 
city.
    They have evaluated many alternatives to correct the 
problem, including restoration of the current building. The 
city leaders have come to the conclusion that the only feasible 
and cost-effective alternative is to raze the building and 
construct new offices in its place. The new building will be in 
keeping with the community's Scandinavian heritage.
    In order for the city to construct these new buildings, the 
city must obtain a small amount of Forest Service land located 
directly behind the current offices. This land currently has 
several small buildings used as storage for wild seed and other 
things. Among other things, this land, though, would serve as a 
parking lot and provide additional space for construction and 
staging activities. Ephraim City is willing to exchange 3.2 
acres of land in its industrial park, so this is pretty high 
value land, for the seven-tenths of an acre of Forest Service 
land. The Forest Service would continue to issue a special use 
permit for the industrial park land to the Utah Division of 
Wildlife Resources. The Division has recently been evaluating 
alternatives for increasing their seed storage capacity. They 
would like to build a state-of-the-art seed storage and mixing 
facility in Ephraim, Utah. The transfer of land would provide 
that opportunity.
    As the city began working with the local Forest Service, it 
became clear that an exchange could not be administratively 
achieved in time for the city to replace its buildings. When 
you live around this much Federal land, even the simplest 
transactions can be complicated. I understand that the Forest 
Service has some concerns regarding this legislation as 
drafted, including concerns over NEPA exclusion language and 
equal value provisions. I thought that such provisions would 
help to expedite this critical trade; however, I would be happy 
to work with the Forest Service to resolve these concerns. In 
fact, we have already initiated appraisals of both parcels and 
expect to have results before we come back from the August 
recess.
    Mr. Chairman, I look forward to working with you on this 
legislation and thank you once again for holding this hearing. 
I might point out that the testimony from the Forest Service, 
from Mr. Bschor, suggests that this can be handled 
administratively. I would certainly like to ask Mr. Bschor some 
questions about that. I thank you and yield back.
    [The prepared statement of Mr. Cannon follows:]

 Statement of the Honorable Chris Cannon, a Representative in Congress 
                         from the State of Utah

    Mr Chairman, thank you for holding this hearing today on H.R. 1772, 
the Ephraim City Land Conveyance Bill. This bill will effect a land 
conveyance from the United States Forest Service to Ephraim City, Utah.
    Ephraim City was founded in 1854 by American and Scandinavian 
pioneers. These settlers transported rocks into the valley and 
constructed a secure fort. This secure fort drew many other settlers, 
and eventually evolved into the modern city of Ephraim.
    The administrative buildings of Ephraim City were built in the 
1930s with a rock and mortar foundation. Unfortunately, the foundations 
are crumbling. In fact, in one part of the city office, the floor 
slopes approximately six inches over a twenty foot span.
    For the past five years, the City has been looking into obtaining 
better city offices to house the legislative, administrative, and 
public safety functions and staff of the City. They have evaluated many 
alternatives to correct this problem, including restoration of the 
current building. The city leaders have come to the conclusion that the 
only feasible and cost-effective alternative is to raze the current 
building and construct new offices in its place. The new building will 
be in keeping with the community's Scandinavian heritage.
    In order for the city to construct these new buildings, the city 
must obtain a small amount of Forest Service land, located directly 
behind the current offices. This land currently has several small 
buildings used as seed storage space. Among other things, this land 
would serve as a parking lot, and provide additional space for 
construction staging activities.
    Ephraim City is willing to exchange 3.2 acres of land located in 
its industrial park for the seven tenths of an acre of Forest Service 
land. The Forest Service would continue to issue a special use permit 
for the industrial park land to the Utah Division of Wildlife 
Resources. The Division has recently been evaluating alternatives for 
increasing their seed storage space. They would like to build a state 
of the art seed storage and mixing facility in Ephraim City. The 
transferred land would provide that opportunity.
    As the City began working with the local Forest Service, it became 
clear that an exchange could not be administratively achieved in time 
for the City to replace its buildings. When you live around this much 
federal land, even the simplest transactions can be complicated.
    I understand that the Forest Service has some concerns regarding 
the legislation as drafted, including concerns over NEPA exclusion 
language and equal value provisions. I had thought that such provisions 
would help to expedite this critical trade. However, I will be happy to 
work with the Forest Service to resolve these concerns. In fact, we 
have already initiated appraisals of both parcels and expect to have 
results before we come back from the August recess.
    Mr. Chairman, I look forward to working with you on this 
legislation and thank you once again for holding this hearing.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Cannon.
    Mr. Bschor will be on our second panel, which will follow 
immediately. Do we have any questions for Mr. Cannon?
    Seeing no questions, we will go ahead and move to Mr. 
Bschor. If you would come on up and take a seat, welcome back 
to the Committee. We appreciate, Denny, your taking the time to 
come over here today. I would remind you that we attempt to 
restrict statements to under 5 minutes. That timer on your 
table will indicate that for you, but thank you again for 
coming to the Committee, and you may proceed.

STATEMENT OF DENNY BSCHOR, DIRECTOR, RECRUITMENT, HERITAGE AND 
           WILDERNESS RESOURCES, USDA FOREST SERVICE

    Mr. Bschor. Good morning, Mr. Chairman, members of the 
Subcommittee, and thank you for this opportunity to discuss the 
views of the administration on H.R. 1772, Ephraim Land 
Exchange, and H.R. 1576, the James Peak Wilderness.
    The administration looks forward to working with the 
Chairman and the Subcommittee on the issues addressed by these 
bills, and in the interests of time, I would like to summarize 
my testimony and with your permission, submit our written 
comments for the record.
    But again, with the Ephraim Land Exchange, H.R. 1772, the 
administration does not object to exchanging these lands. 
However, we would like to explore with the Committee other 
authorities which presently exist that could be used, such as 
the Town Site Act, and as Representative Cannon emphasized, 
Section 1(c) of H.R. 1772 determines that this exchange is not 
a major Federal action under NEPA, the National Environmental 
Policy Act. The administration opposes Section 1(c) based on 
the fact that numerous issues concerning exchanges of this type 
do occur and may still be unknown and for the other reason that 
there is historical significance for the U.S. parcel that would 
be exchanged out of.
    If the Committee determines specific legislation is 
warranted, the administration would be willing to work with the 
Committee to ensure the exchange is equitable and 
environmentally sound. That is all I have to say about the 
Ephraim exchange, and should I go on to the other bill, or do 
you want questions here?
    Mr. McInnis. Denny, I think what we will do is stop right 
now with that bill and see if there are any questions for the 
witness.
    [The prepared statement of Mr. Bschor follows:]

   Statement of Dennis Bschor, Director of Recreation, Heritage, and 
   Wilderness Resources, Forest Service, United States Department of 
                              Agriculture

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to discuss the views of the Administration on H.R. 1772, 
Ephraim Utah Land Exchange and H.R. 1576, James Peak Wilderness. I am 
Dennis Bschor, Director of Recreation, Heritage, and Wilderness 
Resources for the USDA Forest Service. The Administration looks forward 
to working with the Chairman and the Subcommittee on the issues 
addressed by these bills.
H.R. 1772, which provides for an exchange of certain property between 
        the United States and Ephraim City, Utah.
    H.R. 1772 would authorize the Secretary of Agriculture to convey a 
0.7-acre parcel of land to Ephraim City, Utah, if Ephraim City, Utah 
conveys all right, title, and interest in a 3.226-acre parcel of land 
to the United States. H.R. 1772 deems the lands authorized to be 
exchanged as equal value. The Administration does not object to 
exchanging the lands with Ephraim City, Utah included in H.R. 1772. 
However, we would like to explore with the Committee the other 
authorities, which presently exist, that could be used to accomplish 
this exchange.
    The Forest Service can meet the objectives of the bill through 
current statute that allows the Forest Service to convey this parcel to 
Ephraim City, Utah for land or cash value. For example, under the 
Townsite Act, the Secretary of Agriculture may convey, for fair market 
value, up to 640 acres of land to established communities located 
adjacent to national forests in Alaska and in the contiguous western 
states. Moreover, under various additional land exchange Acts, the 
Secretary of Agriculture can exchange national forest system lands with 
State and local governments.
    In addition, section 1(c) of H.R. 1772 determines this exchange is 
not a major Federal action for the purposes of section 102(2)(C) of the 
National Environmental Policy Act of 1969 (NEPA). The Administration 
opposes section 1(c). There are numerous issues concerning an exchange 
of this type, including historic significance of the US parcel, that 
should be addressed as part of a participatory and transparent process 
that NEPA provides. We believe that, in this case, the requirements of 
NEPA would be satisfied with analysis and documentation that can be 
expeditiously provided in an Environmental Assessment and that the 
exchange should be subject to the NEPA process.
    If the Committee determines that specific legislation is warranted, 
the Administration would be willing to work with the Committee to 
ensure that the exchange is equitable and environmentally sound.
H.R. 1576 - James Peak Wilderness, Wilderness Study, and Protection 
        Area Act
    In summary, H.R. 1576 designates two areas as wilderness areas, one 
area as a wilderness study area, and one area as a protection area. In 
addition, H.R. 1576 addresses acquisition of State and private lands 
within the protected areas and directs the Forest Supervisor to 
construct a trailhead in the Fall River basin and provide technical 
assistance to local governments in repairing Rollins Pass Road.
    Section 2 of H.R. 1576 would designate approximately 14,000 acres 
of land within the Arapaho and Roosevelt National Forests as the James 
Peak Wilderness and add approximately 2,232 acres of the Arapaho and 
Roosevelt National Forests known as the Ranch Creek Addition to the 
Indian Peaks Wilderness.
    Section 3 of the bill would designate 18,000 acres of the Arapaho 
and Roosevelt National Forests as the James Peak Protection Area. This 
area would be managed consistent with the direction established in the 
1997 Revised Land and Resource Management Plan (LRMP) for the Arapaho 
and Roosevelt National Forests. Approximately 8,000 acres of the 
18,000-acre James Peak Protection Area would be managed as a wilderness 
study area to maintain the wilderness character for future 
consideration as wilderness. Section 3 also requires the Secretary to 
restrict the use of motorized and mechanized travel to designated 
routes within the Protection Area. This section instructs the Secretary 
to prepare a report to Congress concerning the suitability of lands 
within the wilderness study area for inclusion in the National 
Wilderness Preservation System. The report will also determine whether 
non-motorized vehicles should be permitted on the Rogers Pass Trail.
    Section 4 of the bill directs the Secretary to negotiate with the 
owners of inholdings on a willing seller basis to acquire those lands 
within the Protection Area. This section also directs the Secretary to 
prepare a report concerning the status of negotiations and acquisition.
    Section 5 of the bill directs the Secretary to establish a 
trailhead in the Fall River basin to regulate use of national forest 
system land in the Fall River basin south of the communities of Alice 
and St. Mary's Glacier and to prepare a report to Congress identifying 
the funding needed to implement this section.
    Section 6 of the bill states that no buffers to wilderness will be 
created and directs the Secretary, upon request, to assist with repair 
of the Rollins Pass road. If repairs are completed, the Secretary is to 
close to motorized travel the roads and trails shown on the Rollins 
Pass road and trail closure map.
    The 1997 Revised LRMP recommended wilderness designation for the 
Ranch Creek Addition to the Indian Peaks Wilderness. The LRMP also 
recommended the Bald Mountain and Chittenden Mountain roadless areas, 
located on the southeast boundary of the Indian Peaks Wilderness, for 
wilderness designation, but these are not included in H.R. 1576. The 
proposed James Peak Wilderness was not recommended for wilderness 
designation in the LRMP. We would like to determine the level of local 
support for this proposed designation.
    We would like to work with the Chairman and Mr. Udall to determine 
whether legislation is necessary to achieve all of the objectives 
outlined in H.R. 1576. While wilderness designations require 
legislation, we believe the protections outlined in the LRMP are 
sufficient to protect the resource values in the proposed James Peak 
Protection Area and James Peak Wilderness Study Area. In addition, the 
LRMP provides direction under which concerns regarding travel 
management and dispersed recreation use can be addressed in the Rollins 
Pass, Rogers Pass, and Fall Creek basin areas.
    We look forward to working with the Chairman, Representative Udall, 
and other delegation members on the proposals raised in this bill.
    This concludes my testimony. I would be happy to address any 
questions that you may have.
                                 ______
                                 
    Mr. McInnis. Mr. Cannon, do you wish to proceed?
    Mr. Cannon. Thank you very much, Mr. Chairman.
    We have a reporter in Utah who keeps a scorecard on the 
delegation, and the number of bills that are introduced and 
passed is significant in that scorecard. We have a lot of 
laughs about that in my office, because it is notoriously 
inaccurate. You cannot track activity.
    From my perspective, we only introduced legislation on this 
issue because a lot of people, including people at the Forest 
Service, felt that it could not be accomplished in a reasonable 
time without legislation. So the real concern whether we do 
this administratively or legislatively is going to come down to 
that issue. It is not a very complex issue. I mean, we are not 
dealing with massive environmental possibilities here. You are 
trading seven-tenths of an acre that is going to be a parking 
lot next to an area that is a building lot now or a lot that is 
inhabited for a much higher value piece of property.
    The reason the city is willing to make that trade is 
because that 3.2 acres is going to result in some significant 
new jobs for the area, so the city is willing to give up the 
value of the property in the exchange not because they are 
concerned about equal value but because they have other 
economic concerns with jobs that will come into town.
    So for the Forest Service, this seems to me to be a pretty 
simple--it will not take a lot of work to establish that the 
3.2 acres is worth more than the seven-tenths of an acre on the 
one hand, and on the other hand, it is an area that is already 
sort of citified and so not subject to some major concerns on 
environmental grounds. What will it take to make this 
transaction happen expeditiously so we do not have a building 
falling in on the employees?
    Mr. Bschor. Administratively, what we would look at is the 
significance of any issues that are on either one of those 
parcels. If there are no significant issues, theoretically, the 
aspects of the NEPA compliance could be very simple. The other 
concern is the historic significance of the U.S. parcel that 
has been nominated for the Historical Register, and we have to 
work with the SHPO to make sure we have proper clearance on 
that before we can dispose of it.
    The estimates as far as how long that would take would 
depend upon the significance of any issues on either of the 
parcels.
    Mr. Cannon. Let me just ask: are you saying that the 
exchange itself could be held up by the historic nature of the 
building?
    Mr. Bschor. I am not saying it is going to be held up. I am 
saying that we have to go through a clearance process with the 
Utah State SHPO, and I do not know how long that could take. I 
cannot estimate that.
    Mr. Cannon. But is that not a problem that the city should 
have as opposed to the Forest Service? In other words, could 
you not do that exchange without solving the SHPO problem and 
leave that to the city to resolve?
    Mr. Bschor. I do not believe that we can, but I would have 
to check on that to be sure.
    Mr. Cannon. You believe that you cannot do it, because you 
believe that under NEPA, you have a responsibility to work with 
the SHPO?
    Mr. Bschor. We have a responsibility to work with the SHPO 
under NEPA and under the Historic Preservation Act also.
    Mr. Cannon. You know, given the simplicity of this 
transaction and the knowledgeable nature of your local guy on 
the ground, do you have any sense of the time frame that we 
need in Washington to oversee the decision that your local guy 
would be making?
    Mr. Bschor. Once again, I do not know relative to the 
significance of the issues and/or of that SHPO review, and I am 
not familiar enough with the specifics to be able to answer 
that.
    Mr. Cannon. Do you have--I hate to put you on the spot, but 
I have got my city councilman and mayor who are very uptight 
about this. Do you have a sense of how long these things 
normally take in your review process, and is there a way to 
speed it up?
    Mr. Bschor. It could take anywhere from a few months to a 
couple of years would be the range.
    Mr. Cannon. Okay; would you mind taking a look at this and 
helping us understand if it is going to be along the order of a 
few months? Because otherwise, we will have to push the 
legislation.
    Mr. Bschor. We will do what we can to expedite it.
    Mr. Cannon. Thank you; so, you will do a couple of things 
for me: one is give me an estimate in writing of how long it 
would take and, secondly, take a look at your obligations to 
work with the SHPO on the historic building?
    Mr. Bschor. I certainly will.
    Mr. Cannon. Thank you, Mr. Bschor. I appreciate your time 
and patience here and yield back, Mr. Chairman.
    Mr. Bschor. You are welcome.
    Mr. McInnis. Denny, I was a little surprised by the comment 
that the minimum time would be a few months. I do not 
understand the problem. Could you not just correspond with 
whatever those initials were?
    Mr. Bschor. There may not be a problem. It depends on, once 
again, what the issues are.
    Mr. McInnis. Assuming there is no problem, you can get this 
done rather rapidly, can you not?
    Mr. Bschor. I think so, yes.
    Mr. McInnis. Okay; well, I would appreciate that courtesy, 
and I know Mr. Cannon has worked on this. You know, when it 
really gets frustrating is when we have something that appears 
on its face to be pretty simple; we look into it, it is pretty 
simple; and we still have to go through a bureaucratic logjam. 
If you can help us guide around that and help Mr. Cannon around 
that, that would be appreciated by the Committee.
    I think unless there are further questions for the witness, 
Denny, what I will do is, if you do not mind, I am going to go 
ahead and let you leave the table, and I will call you back in 
a few minutes on the James Peak. But I do appreciate your 
coming up for this and appreciate you also staying around.
    Mr. Bschor. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Cannon, I appreciate your appearance here 
today, and we are going to move on to the next one.H.R. 1576
    Mr. McInnis. Mr. Udall, why do you not go ahead and get us 
started? This is your bill. Again, I want to make some remarks 
for the record. Mr. Udall, you have put a lot of energy into 
this, and I appreciate the communication and the working 
relationship that we have on this and a number of different 
subjects. But you have really been dedicated to this cause. I 
just want the record to note this. And I think we can make it 
work. So, thanks for coming today. I appreciate it, and I will 
go ahead and let you describe your bill and what we are hoping 
to do.

STATEMENT OF HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF COLORADO

    Mr. Udall of Colorado. Thank you, Mr. Chairman, and thank 
you for scheduling this hearing on my bill, H.R. 1576. The bill 
deals with a key part of the high alpine environment along 
Colorado's continental divide. To expedite matters, I would ask 
unanimous consent that my full statement be included in the 
hearing record.
    Mr. McInnis. With no objection, so ordered.
    Mr. Udall of Colorado. And I will make a few introductory 
remarks using particularly this display of the map here.
    As you know, Mr. Chairman, this bill deals with a 26,000-
acre roadless area within the Arapaho-Roosevelt National Forest 
just north and east of Berthed Pass. The roadless area takes 
its name from the 13,294-foot James Peak, which is its 
predominant feature. The roadless area of James Peak straddles 
the continental divide and includes lands within Gilpin, Clear 
Creek and Boulder Counties within the district that I represent 
as well as lands in Grand County in your district. It is the 
largest unprotected roadless area on the northern Front Range 
and has important wildlife values as well as outstanding 
recreational opportunities.
    To help the Subcommittee have a better understanding of the 
way the bill would affect this area, I have brought a map with 
overlays which you can see over here on the easel near the 
witness table. The base map is a topographical map showing this 
part of the state. And then, we will go to the first overlay, 
which shows the lands that would be designated as wilderness by 
the bill, the area of about 14,000 acres on the east side of 
the continental divide that would be designated as the James 
Peak Wilderness and the approximately 2,000 acres on the west 
side that would be added to the existing Indian Peaks 
Wilderness.
    Doug, if you would point out that 2,000 acres to the north, 
which is on the west side of the divide.
    The next overlay shows the lands that the bill would 
designate as the James Peak Protection Area, and this amounts 
to about 18,000 acres, mostly south of the Indian Peaks 
addition but with a smaller part further north. Doug, if you 
would show the Chairman; yes, that is the further north portion 
and then the southern protection area there.
    The final overlay shows the part of the protection area, 
about 8,000 acres, that the bill would designate as a 
wilderness study area.
    Of course, as you know, Mr. Chairman, no map can really 
substitute for an actual look at this or any other part of 
Colorado, and that is why I have invited you and other members 
of the delegation to join me in visiting the area and hiking to 
the summit of James Peak itself. We are planning to do that on 
August 22, and I certainly hope that you will be able to join 
us then, just as I am looking forward to joining you for at 
least part of the Subcommittee's visit to some of the other 
parts of Colorado's National Forest lands during the break in 
August.
    As you know, Mr. Chairman, the idea of wilderness 
designation for these lands is not a new one. Commissioner Sill 
will testify about his efforts toward that goal, and my 
predecessor, David Skaggs, sought wilderness designation for 
lands in this area as well, and I have also been interested in 
wilderness protection for the James Peak area since my election 
to Congress. In 1999, I introduced a bill that would have 
designated about 22,000 acres of the James Peak roadless area 
as wilderness, including about 8,000 acres in Grand County.
    The proposal was designed to renew discussions for the 
appropriate management of the lands that qualify for wilderness 
consideration, and in fact, the bill today is the product of 
nearly 2 years of subsequent discussions with county officials, 
interested groups and the general public. In particular, I have 
sought to work with my friends in the Grand County Commission 
who have not been enthusiastic about the idea of wilderness 
designation for lands in that county and have also had a number 
of concerns.
    Last year, the commissioners in Grand County indicated that 
they could not support the previous bill and outlined the James 
Peak Protection Area alternative. Their proposal covered both 
the lands in Grand County proposed for wilderness in my 
previous bill and also an additional 10,000 acres of National 
Forest land. I gave serious attention to this alternative and 
also carefully considered the views of a variety of interested 
individuals and groups who had concerns about it. Based on 
that, in February of this year, I released a more detailed 
legislative proposal based on the protection area concept for 
public review and comment. Following the release of this 
proposal, I met with the Grand County Commissioners to discuss 
the new proposal and for the option of wilderness for some of 
the lands in the Grand County part of the James Peak area.
    I thought my meetings with the commissioners were 
productive. We discussed a number of issues, most of which have 
been addressed in the bill before us today. It was my hope that 
because their concerns had been accommodated that the 
commissioners would reconsider some wilderness protection for 
the lands in the James Peak roadless area south of Rollins 
Pass. The commissioners were not ready to endorse this 
proposal, but they did express support for other parts of my 
proposal, including an addition to the existing Indian Peaks 
Wilderness Area.
    They also indicated that they understood and found 
acceptable the Forest Service process for periodic review of 
the way it manages National Forest lands in Grand County and 
indicated they would not oppose having the Forest Service again 
review the land south of Rollins Pass for possible wilderness 
designation. Accordingly, the bill now before us includes a 
statutory requirement for a renewed wilderness study of the 
part of the protection area south of Rollins Pass, the 
approximately 8,000 acres that composes that area.
    The bill would require the Forest Service to report its 
recommendations for these 8,000 acres within 3 years. It would 
then be up to the Congress to then decide regarding the future 
management of these lands. As you know, Mr. Chairman, it is 
standard procedure under current law for the Forest Service to 
reconsider possible wilderness recommendations when it 
considers a new forest plan. The current plan was completed in 
1997, so the next plan is due to be prepared in the next 6 to 7 
years.
    So, in other words, the main effect of the wilderness study 
provision of the bill will be to speed up the Forest Service 
reconsideration of this area while maintaining the status quo 
on the ground until Congress can consider whatever 
recommendation the Forest Service produces.
    The bill also addresses the question of the future use of 
the Rogers Pass Trail by directing the Forest Service to 
evaluate whether and to what extent it should be managed for 
mechanized recreational use.
    I am aware that the commissioners of Grand County and other 
interested parties have concerns about both aspects of this 
bill, and I am sure we will hear testimony about both at 
today's hearing.
    In conclusion, Mr. Chairman, as you know, this area is 
indeed very special. It is one of the last remaining 
unprotected stretches along the continental divide in this part 
of our state and includes a number of high alpine lakes and 
tundra ecosystems and many other resources as well.
    With the continuing pressure of population growth along the 
Front Range, I am concerned that if we do not protect these 
lands now, we could lose a critical resource for future 
generations. So I again really appreciate your scheduling this 
hearing and look forward to working with you and other members 
of the Subcommittee on this legislation.
    [The prepared statement of Mr. Udall of Colorado follows:]

 Statement of Honorable Mark Udall, a Representative in Congress from 
                         the State of Colorado

    Thank you, Mr. Chairman, and thank you for scheduling this hearing 
on H.R. 1576, my bill dealing with a key part of the high alpine 
environment along Colorado's Continental Divide.
    As you know, Mr. Chairman, the 13,294-foot James Peak is the 
predominant feature in a 26,000-acre roadless area within the Arapaho-
Roosevelt National Forest just north and east of Berthoud Pass. The 
James Peak roadless area straddles the Continental Divide and includes 
lands within Gilpin, Clear Creek, Grand, and Boulder counties.
    This is the largest unprotected roadless area on the Northern Front 
Range. The area offers outstanding recreational opportunities for 
hiking, skiing, fishing, and backpacking.
    My predecessor, Representative David Skaggs, sought wilderness 
designation for lands in this area, and I have been interested in 
wilderness protection for the James Peak area since my election to 
Congress in 1998.
    In 1999, I introduced a bill that would have designated about 
22,000 of the James Peak roadless area as wilderness, including about 
8,000 acres in Grand County. This proposal was designed to renew 
discussions for the appropriate management of these lands that qualify 
for wilderness consideration.
    And in fact, the bill before us today is the product of nearly two 
years of subsequent discussions with county officials, interested 
groups, and the general public.
    My previous bill did receive many expressions of support. However, 
after its introduction, the County Commissioners of Grand County--which 
includes the western side of the James Peak area--expressed some 
concerns with the proposed wilderness designation for the lands in that 
county. They indicated that in their view any such legislation needed 
to make accommodation for any ``dispersed recreation'' opportunities in 
the area and needed to address private inholdings. The Commissioners 
also indicated that the Rollins Pass road should be excluded from 
wilderness.
    I agreed to work with Grand County on these and a number of other 
issues. We held several discussions, including a public meeting in 
Grand County. After that, the Grand County Commissioners indicated that 
they could not entirely support the previous bill, and outlined a 
``James Peak Protection Area'' alternative.
    The Commissioners' ``protection area'' alternative did not spell 
out all details, but its essence was that instead of designation of 
wilderness there should be designation of a ``protection area'' that 
would include the lands in Grand County proposed for wilderness in my 
previous bill and also an additional 10,000 acres of national forest 
land.
    The Commissioners' proposals also would have allowed for a section 
of high tundra above Rollins Pass along the divide to be open to 
motorized and mechanized recreation (snowmobiles and mountain bikes).
    I gave serious attention to this alternative and also carefully 
considered the views of a variety of interested individuals and groups 
who had concerns about it. Based on that, on February 12, 2001, I 
released a more detailed legislative proposal for public review and 
comment.
    This proposal was based on the Commissioners' ``protection area'' 
alternative. It would have designated as wilderness 14,000 acres of the 
James Peak roadless area in Boulder, Clear Creek and Gilpin Counties. 
It also would have designated 18,000 acres in Grand County as a ``James 
Peak Protection Area,'' and would have added 2,000 acres (that were 
encompassed by the Commissioners' ``protection area'' alternative) to 
the Indian Peaks Wilderness Area (these acres were recommended for 
wilderness by the Forest Service).
    The proposal included language to spell out in more detail the 
management regime of the ``protection area.'' These provisions were 
largely based the management rules for the Bowen Gulch ``backcountry 
recreation'' area and the existing ``special interest area'' Forest 
Service management under the 1997 Forest Plan. Inclusion of the latter 
provision was at the request of the Grand County Commissioners.
    Following the release of this proposal, I met twice with the Grand 
County Commissioners to discuss this proposal and for the option of 
wilderness for some lands in the Grand County part of the James Peak 
roadless area.
    I thought these were productive meetings. We discussed a number of 
issues, most of which have been addressed in the bill before us today.
    It was my hope that because their concerns had been accommodated, 
the Grand County Commissioners would reconsider some wilderness 
protection for the lands in the James Peak roadless area south of 
Rollins Pass.
    However, it was my impression that at that time the three Grand 
County Commissioners were divided on this question (one Commissioner 
did suggest extending the wilderness boundary westwards over the Divide 
and down to timberline in Grand County).
    Nevertheless, the Grand County Commissioners did express support 
for the wilderness addition to the Indian Peaks Wilderness Area, 
support for the ``protection area'' to be managed according to the 1997 
Forest Plan and for the adjustments that I had made based on their 
input.
    Regrettably, however, they expressed opposition to any wilderness 
designation now for lands south of Rollins Pass or Rogers Pass.
    The Commissioners also indicated a concern that such a designation 
might have some effect on water rights. I think it is clear that there 
are no grounds for such concerns.
    Careful review has convinced me that there are no water rights 
except those for national forest purposes and no diversion facilities 
in the portion of the James Peak roadless area south of Rollins Pass. 
In addition, if any such rights do exist, they would not be 
extinguished by wilderness designation. Furthermore, as any wilderness 
designation for this area would be governed by the 1993 Colorado 
Wilderness Act, the courts would be barred from considering any 
assertion that the designation involved a federal reserved water right. 
Further, this area is essentially a headwaters area. Wilderness 
protection would thus ensure that water would continue to flow out of 
this area--unimpeded--for downstream users and benefits.
    The Grand County Commissioners did indicate that they understood 
and found acceptable the Forest Service's process for periodic review 
of the way it manages national forest lands in Grand County. Further, 
the Commissioners indicated they would not oppose having the Forest 
Service again review the lands south of Rollins Pass for possible 
wilderness designation. They indicated that they were aware that the 
Forest Service had reviewed this area in the past and could have 
recommended it for wilderness, but did not do so. The Commissioners 
also indicated that if the Forest Service were to review the area 
again, they would respect that process.
    Accordingly, the bill now before us provides for such a renewed 
study of these lands. It designates the James Peak roadless lands in 
Grand County south of Rollins Pass as a ``wilderness study area'' and 
directs the Forest Service to re-look at this area for suitability as 
wilderness.
    This provision will preserve the status quo on approximately 8,000 
acres south of Rollins Pass by keeping this area in its current 
roadless and pristine state. The bill would require the Forest Service 
to report its recommendations for these 8,000 acres within three years. 
It will then be up to Congress to decide regarding the future 
management of these lands.
    This part of the bill also addresses the Roger Pass trail issue--an 
issue of importance to the Grand County Commissioners and users of this 
trail. While I believe that this trail should be included in wilderness 
(it is within the proposed wilderness study area), the bill directs 
that the Forest Service evaluate whether and to what extent this trail 
should be managed for mechanized recreational use.
    I believe that the bill now before us keeps faith with my 
commitment to work with local County Commissioners and others. It 
addresses a majority of the issues that were raised.
    These lands are indeed special. They contain a number of high 
alpine lakes and tundra ecosystems. This area also represents one of 
the last remaining unprotected stretches of the Continental Divide that 
comprises the Northern Front Range Mountain Backdrop.
    With the population growth occurring along the Front Range of 
Colorado, I am concerned that if we do not protect these special lands 
for future generations, we could lose a critical resource for future 
generations. That is why I introduced this bill and why I urge its 
approval by the Subcommittee.
                                 ______
                                 
    [An attachment to Mr. Udall's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T4155.001
    
    Mr. McInnis. Thank you, Mr. Udall.
    Mr. Udall, a couple of points I would make. First of all, 
you utilized the word unprotected. I want our guests here at 
the Committee today to understand that the land is protected as 
it exists today. It may not have wilderness designation, but I 
want to make sure when we say unprotected that you just cannot 
go up there and build a shopping mall or run an Interstate or a 
highway through there or a road through there. I mean, that is 
protected through different management plans. It is not 
protected by wilderness designation.
    The second thing that I would point out is you said that 
the main effect of the wilderness study today, and you went on 
to say something. I want to make it very clear: the main effect 
of the wilderness study area is whether or not this bill goes 
forward. Now, your position in February, and I know that you 
have taken some heat from some environmental organizations; I 
think the position that you took in February was the common 
sense approach. It is the approach that is going to make this 
bill feasible, and that was that it is going into a protection 
area and not a wilderness study area.
    So I think that if you go back to the position that you 
held in February, this is where this compromise is going to 
come together. If we cannot come to that position, we then run 
counter to the recommendations of the county commissioners, who 
are the people who live on the ground; know the ground and 
study the ground. And as I have said previously, this bill is 
not going to move without the consent of those commissioners, 
and those commissioners are not going to consent to this bill 
if it is wilderness study area versus protection area.
    Now, the public should know that the differences between 
the two are very minute, frankly, and that the protection of 
the area is going to be as strong under my compromise language 
as it is under wilderness study. So I appreciate your opening 
remarks. I just want to make sure that you and I have a clear 
understanding on the record, because I did not quite get that 
out of your remarks, that we need to move toward this 
compromise which should, in my opinion, not be difficult for 
you, because it simply reiterates the position you took in 
February.
    Go ahead.
    Mr. Udall of Colorado. Would the gentleman yield? I thank 
the Chairman for yielding, and I take your remarks very 
seriously, and my remarks were intended to outline the 
historical progression, if you will, of the negotiations and 
the discussions and to give the witnesses today and yourself 
and other members of the Committee an understanding of how we 
have arrived at the point at which we have arrived today. And I 
do look forward to these further discussions and seeing if we 
can work our way to where we can agree on a common effort. So I 
thank you for your comments.
    Mr. McInnis. Well, Mr. Udall, I want to make it clear that 
I am not sure how many further discussions--I think we are at a 
point where the compromise language is how it is going to work 
for your bill, and I want to say this to you, because I do not 
want our guests today to leave the room thinking that there is 
not something out there that is going to make it work. And if 
anybody deserves to make it work, you do because of the 
dedication and the commitment you have put into this and the 
endless hours you have spent on that.
    Mr. Udall of Colorado. Would the gentleman yield once more?
    Mr. McInnis. Sure, of course.
    Mr. Udall of Colorado. One of the aspects of the 
discussions we had on an ongoing basis not only with the Grand 
County Commissioners but with Commissioners Sill and Gilpin was 
wilderness--and I know this is the sticking point for all of 
us--was continually on the table, and I know Mr. Newberry will, 
I think, talk briefly about some of the discussions we had 
about whether wilderness would work or not in this 8,000 acre 
parcel, and I would suggest that the discussions were open-
ended; they were iterative, to use a word. We did not know 
quite where we were going to arrive, but we continued those 
discussions.
    And so, that is just a further comment to discuss this. As 
you know, the wilderness with a big W can be a very charged 
topic, and you have strong emotions on both sides of that 
issue, and that was the intent of my remarks was to--
    Mr. McInnis. And I understand that, but we can bring this 
to closure, Mr. Udall. I mean, this is at the point of closure. 
The Forest Service wants it brought to the point of closure; we 
are at the point of closure by simply bringing the parties to 
the compromise language. And as I said, in my opinion, it 
should not be--it certainly is not counter to anything that you 
believe in, because it is a position which you had in February 
which I think was a very reasonable position and which is 
supported by our local county commissioners in the county that 
is directly impacted by this.
    But anyway, your energy is obviously reflected, and I will 
yield.
    Mr. Udall of Colorado. I look forward to hearing from the 
witnesses and hearing what they have to say today as well.
    Mr. McInnis. Sure; we will proceed.
    As a courtesy, Mr. Inslee has just come in. Mr. Inslee, we 
went ahead and passed without any kind of controversy or 
discussion really Mr. Cannon's--we did not pass it; we had the 
testimony on Mr. Cannon's legislation. We are about to go into 
our panel 4. If you wish to make some introductory remarks, you 
may proceed.
    Mr. Inslee. My introductory remarks are to apologize to the 
panel for being late and thank you for your courtesy.
    Mr. McInnis. Denny, if you do not mind, why do we not just 
bring you back up? And then, I can kind of cut you loose. I 
would remind all of the witnesses: we do have a number of 
witnesses who would like to discuss this bill today. We do have 
a time limit on the Committee this morning due to other 
commitments, so we will have to strictly adhere to the 5-minute 
rule.
    Denny, again, thank you for coming. You may proceed, sir.
    Mr. Bschor. Thank you very much, Mr. Chairman, and my 5 
minutes should be--this should be very short.
    I am here to testify on the James Peak Wilderness, 
Wilderness Study Area and Protection Area Act, and before I 
start, I want to once again emphasize that we have full 
appreciation and understanding of the Congress' authority and 
responsibility to create wilderness, and with that in mind, I 
wish to bring your attention to the following points from the 
Forest Service perspective: number one, the 1997 revised land 
resource management plan for the Arapaho-Roosevelt National 
Forest did not recommend the proposed 14,000-acre James Peak 
area as wilderness. That also includes the 8,000-acre area of 
the James Peak Wilderness Study Area.
    Number two, the Land and Resource Management Plan did 
recommend the proposed 2,232 acres of the Ranch Creek area as 
an addition to wilderness along with two other areas, Bald 
Mountain and Chittenden Mountain, that H.R. 1576 does not 
address. And number three, the land and resource management 
plan designated as backcountry and special interest area with 
similar protections as proposed in the H.R. 1576 as basically a 
protected area under those designations.
    While wilderness designations require legislation, we 
believe that the protections as outlined in the land and 
resource management plan are sufficient to protect the resource 
values in the proposed James Peak Protection Area and the James 
Peak Wilderness Study Area. The land and resource management 
plan also provides direction under which concerns regarding 
travel management and dispersed recreation use can be addressed 
in the Rollins Peak, the Rogers Pass and the Fall Creek Basin 
areas.
    That concludes my testimony. We look forward to working 
with you, Mr. Chairman and Representative Udall and other 
members of the Subcommittee on the proposals raised in these 
bills, and I would be happy to address any questions at this 
point.
    Mr. McInnis. Excuse me; Denny, let me start out. The Forest 
Service, your local district ranger, has said previously he is 
opposed to the wilderness study area that is proposed in the 
legislation as introduced. Is that still the position of the 
Forest Service?
    Mr. Bschor. The position of the Forest Service is reflected 
in the land and resource management plan.
    Mr. McInnis. Is what?
    Mr. Bschor. Is reflected in the land and resource 
management plan for the Arapaho-Roosevelt National Forest.
    Mr. McInnis. Which is that there was not a wilderness at 
all designated.
    Mr. Bschor. Right.
    Mr. McInnis. Or a wilderness study area.
    Mr. Bschor. Right.
    Mr. McInnis. So that if this bill actually comes out with a 
protection area and a wilderness, it still greatly exceeds 
anything that the Forest Service has recommended.
    Mr. Bschor. Yes; but we only recommend. Congress designates 
these types of protections and wilderness. You have the only 
authority to establish wilderness.
    Mr. McInnis. That is correct.
    Panel, we will go ahead and start with questions. Mr. 
Udall--Mr. Inslee yields to Mr. Udall.
    Go ahead, Mr. Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman.
    Denny, thanks for taking time to come today and be a part 
of the panel.
    From your testimony, and this may build on what Congressman 
McInnis just asked you, I cannot tell if you are supporting the 
bill, opposing the bill or saying that you do not care what 
happens. Could you make your position a little clearer?
    Mr. Bschor. I think what we will--what I have tried to say 
is that you have the ultimate authority to make these sorts of 
designations, and whatever you decide, we will comply with and 
that until something is decided by Congress, we will manage 
under the current land and resource management plan.
    Mr. Udall of Colorado. If I could move to the forest plan 
that you just referenced, it appears that the Forest Service 
agrees that there are no major conflicts that would preclude 
wilderness designation, things like timber sales, mining 
claims, roads, trails and so on. Is that right?
    Mr. Bschor. I believe in the deliberations of the forest 
plan, there was concern about several factors: number one, the 
juxtaposition of these proposed areas near the evidence of 
sight and sound of human activity, because that is one of the 
things we try and stay away from, and also, I think we 
recognized that this particular issue is highly volatile as far 
as there is a lot of emotion involved in this, as we have seen 
this morning, and that we really need to be in a position where 
there is agreement with not only the local individuals but also 
local government entities as to what should happen. So we have 
considered all of that.
    Mr. Udall of Colorado. If I could build on those comments, 
when I look at the documents in the 1997 plan, it appears that 
it was a really close call for you all, and if I could quote on 
page 23 of appendix C, under the section titled Recommendation 
for Capability for Wilderness, it says: ``While these human 
activities outside the roadless area greatly affect the quality 
of the experience available'' within the roadless area, ``they 
are not significant enough to state that James Peak is not 
capable of wilderness designation when looking at the area as a 
whole. The area is therefore marginally capable of meeting the 
criteria for wilderness designation.''
    And then, in addition, there is this on the same page under 
the heading of Wilderness Availability: ``James Peak is 
available for wilderness as it does not fall within any of the 
categories that would make it incompatible with wilderness 
designation.'' In view of this language, would you agree that 
these lands are at least worth serious consideration for 
wilderness?
    Mr. Bschor. They obviously have wilderness characteristics.
    Mr. Udall of Colorado. As I understand it, under current 
law and regulations, the Forest Service would take another look 
at the wilderness potential of these lands again the next time 
you prepare a forest plan for the A-R.
    Mr. Bschor. That is correct.
    Mr. Udall of Colorado. Is that right? So you would not have 
a problem with allowing that process to go forward again when 
the time comes for a new forest plan.
    Mr. Bschor. Once again, we do not have a position on that. 
It depends on what Congress decides to do there.
    Mr. Udall of Colorado. The bill--and again, Congressman 
McInnis and I have at least a difference in approach at this 
time, and we are going to continue to discuss this. But my 
bill, as I introduced it, called for a wilderness study sooner 
than that. But what other difference, in your opinion, would it 
make to include the wilderness study designation in the 
legislation? Would it make a practical difference in the way 
you manage the lands between now and the next revision of the 
forest plan?
    Mr. Bschor. I do not believe so to any great extent, 
although I am not familiar enough with the specifics of that 
country to say for sure.
    Mr. Udall of Colorado. Let me turn to Rogers Pass, which is 
the area on the northern edge of the proposed area. There is a 
trail that runs to that pass; it is a spur trail off of the 
Rollins Pass road. Can you tell me what the status of the trail 
is, and what are the authorized uses for it? Is it open, in 
particular, to mountain bike use?
    Mr. Bschor. It is open, but mountain bike use is 
discouraged because of terrain and that sort of thing, safety 
issues and that sort of concern. But if a person can ride it, 
they can go up there.
    Mr. Udall of Colorado. The trail leads to the continental 
divide. Is bicycle use permitted on the eastern side?
    Mr. Bschor. As far as I know--
    Mr. Udall of Colorado. On the other side of Rogers pass?
    Mr. Bschor. As far as I know, it is, but once again, it is 
not encouraged.
    Mr. Udall of Colorado. I actually would ask for the record 
that we check whether it is allowed or not. I think it is not 
allowed on the other side of the divide; in effect, it is one-
way route.
    Mr. Bschor. Okay.
    Mr. Udall of Colorado. What about on the continental divide 
itself? Is bicycle use permitted north to south or south to 
north on the divide?
    Mr. Bschor. As far as I know, outside of wilderness, it is 
permitted.
    Mr. Udall of Colorado. Mr. Chairman, I see my time has 
expired, and I appreciate the opportunity to ask these 
questions.
    Mr. McInnis. Mr. Udall, if you have another couple burning 
questions, you can go ahead and proceed with the witness. I 
mean, this is your bill.
    Mr. Udall of Colorado. Thank you, Mr. Chairman.
    Could you give us a better sense of the existing special 
interest area designation for the James Peak roadless area in 
the 1997 forest plan?
    Mr. Bschor. Yes, I can. I had that page just a second ago, 
and I closed the book. Just one moment, please.
    Okay; special interest involves our management for public 
education, interpretation, recreation or development while 
protecting and enhancing the areas with unusual 
characteristics, and things that can occur in there typically, 
they have been designated as botanical, geological, historical, 
paleontological, scenic and zoological areas. They are 
designated to protect and manage threatened, endangered and 
sensitive species and other elements of biological diversity 
for their scenic values and for public popularity.
    They are small to fairly large areas; all these sorts of 
things. Now, this is a general description of the vegetation 
and terrestrial and aquatic habitat, soil productivity and 
water quality usually but not always are pure and near natural; 
relatively pristine or presettlement; maintain or restore 
natural or near-natural conditions in protected, threatened, 
endangered or sensitive species.
    Mr. Udall of Colorado. Denny, could you sum up--and again, 
I appreciate the detail that you are providing us with--by 
answering this question which is related to that first one I 
asked you, which is how does the current management of this 
area differ from the way it would be managed under my bill?
    Mr. Bschor. Not significantly at all.
    Mr. Udall of Colorado. Mr. Chairman, I just have one other 
set of questions, and I appreciate the additional time.
    On the last page of your testimony, you say you would like 
to determine the level of local support for this proposed 
designation. Which designation are you talking about? The 
wilderness, the protection area or the wilderness study area? 
And would you agree that carrying out a wilderness study 
inventory, as provided for in the bill, would be a good way to 
determine the level of local support for wilderness designation 
in the study area?
    Mr. Bschor. That statement is relative to the wilderness 
designation.
    Mr. Udall of Colorado. As to wilderness.
    When you carry out wilderness studies as provided for in 
the bill, would you agree that they are a good way to determine 
the level of local support for wilderness designation?
    Mr. Bschor. We usually hear a lot about what that support 
is or is not.
    Mr. Udall of Colorado. Yes, is or is not.
    Mr. Bschor. It is not always definitive, though, which way 
to go, if that is your question.
    Mr. Udall of Colorado. Thank you for your time, Mr. 
Chairman, thank you for the additional time, and I have had my 
questions answered, and I really appreciate it. Thank you.
    Mr. Bschor. Thank you.
    Mr. McInnis. Mr. Souder?
    Mr. Souder. Thank you, and please pardon some of the 
ignorance in my questions. I have not dealt with forests as 
much, and I am in a learning curve. I have dealt a little bit 
more with the parks.
    But one thing that has struck me both inside our national 
parks and the wilderness areas, and this is my question: a 
wilderness study area is basically treated as wilderness as 
long as the study is going on. Is there a time limit on the 
study?
    Mr. Bschor. I do not believe so.
    Mr. Souder. It looks to me like most of the wilderness 
study areas in the United States, what percentage actually 
become wilderness as opposed to remain wilderness study areas?
    Mr. Bschor. That would be very difficult for me to even 
estimate at this point, because you are talking about all 
wildernesses in all four agencies or just the Forest Service?
    Mr. Souder. Forest Service.
    Mr. Bschor. Okay; I still would have to research that 
question for you.
    Mr. Souder. I would appreciate getting a general ball park.
    Mr. Bschor. Sure.
    Mr. Souder. And have there ever been proposals that put a 
time limit? In other words, a wilderness study is done in 12 to 
24 months, and if Congress does not act, it reverts back?
    Mr. Bschor. If Congress puts a time limit on it, we would 
follow it.
    Mr. Souder. Do you know of any case like that?
    Mr. Bschor. I am not aware of any specifically, but I 
cannot say there have not been any.
    Mr. Souder. Do you know what the longest time where 
something was designated a wilderness study area and never--and 
has just been in that kind of limbo state is in the Forest 
Service?
    Mr. Bschor. Once again, I would have to research that, but 
the time frame would be very long.
    Mr. Udall of Colorado. Would the gentleman yield?
    Mr. Souder. I will yield.
    Mr. Udall of Colorado. I believe, and my colleague, Mr. 
McInnis might be able to confirm this, that in Colorado, the 
Spanish Peaks Wilderness process we went through that there was 
a 3-year time limit based upon the 1993 legislation that 
passed. The Forest Service was given 3 years to study and 
recommend on that particular--
    Mr. Souder. And then, if there is no action, what happens?
    Mr. Udall of Colorado. I think the interim protection ended 
if there was no action in that 3-year period.
    Mr. Souder. Is that in this bill?
    Mr. Udall of Colorado. That is not the case in this bill, 
no.
    Mr. Souder. Thank you.
    A second question I have is if it is a wilderness study 
area as opposed to a wilderness designation, does the Forest 
Service treat it differently if there is a fire?
    Mr. Bschor. What we try to do with our fire management in 
all backcountry areas is to have a fire management plan 
established before a fire starts. Now, that does not always 
occur, but that is what our goal is. And that fire management 
plan would be treated fairly similarly to wilderness except in 
a study area, it would be very similar, yes. It would be the 
same thing.
    Mr. Souder. So if there is a fire in a wilderness study 
area, you are saying it would be treated the same as in a 
regular forest?
    Mr. Bschor. In a regular wilderness.
    Mr. Souder. In a regular wilderness? What is the 
difference, then, in a wilderness and a nonwilderness in how 
you would fight a fire?
    Mr. Bschor. In a nonwilderness, you would have the ability 
to use motorized equipment and be able to use, in a lot of 
cases, existing access and roads that might be there to get to 
the fire.
    Mr. Souder. If a fire is spreading, are you limited as to 
what you can do to anticipate where it is spreading to in a 
wilderness?
    Mr. Bschor. Once again, it depends on whether you have a 
fire management plan for that wilderness in place, and 
wilderness is also managed to let the natural conditions occur 
over time, and fire is part of the ecosystem. So the theory is 
to let some of those fires burn and actually return the 
wilderness to a condition that had fire in it when that is the 
situation in the history of that particular piece of country.
    Mr. Udall of Colorado. Would the gentleman yield?
    Mr. Souder. Yes.
    Mr. Udall of Colorado. I would like to clarify that 
everything that Denny says is proper, but the law from the 
Wilderness Act itself gives quite a great deal of latitude to 
the Secretary. And if I could read the particular sentence, it 
says: ``In addition''--these are in the special provisions part 
of the law--``in addition, such measures may be taken as may be 
necessary in the control of fire, insects and diseases, subject 
to such conditions as the Secretary deems desirable.''
    So I think Denny is sharing that policy of the Forest 
Service, but certainly, the law provides a great deal of 
latitude to deal with disease, insects and fire.
    Mr. Souder. Thank you.
    I would like to make a general statement as my time goes: 
as somebody with no dog in this hunt--we do not have anything 
in my district that relates to this; I got on this Committee 
because I am deeply interested in how to achieve the balance 
that was put there from the very beginning both in the Park 
Service and the Forest Service and how you have recreational; 
how you have resource usage and protect wilderness at the same 
time. And what I have seen in general, trying to learn a 
subject from the outside, not living in it from a district 
standpoint, is an incredible amount of chaos between the Park 
Service, the BLM, the Forest Service; who has wilderness; who 
has recreation.
    But what is clear is that in the Park Service, we are 
moving more toward less intense usage, which is going to put 
more pressures on the Forest Service in kind of where camping 
is going to occur; where hotels are going to occur; where 
certain recreational opportunities are going to occur. And 
almost every park I have visited is surrounded by forest and 
then by BLM land, and trying to figure out a unified way of 
where people are going to have camping, biking, boating 
opportunities at the same time as we move the wilderness 
designations, I hope we can see more coordination and a 
regional plan approach in these things, which I know is the 
goal of most of the agencies, and that is one of my goals in 
this Committee is to try to address it so that we do not see 
opportunities shut down and, at the same time, we are trying to 
preserve more wilderness.
    I yield back the balance of my time.
    Mr. McInnis. Mr. Souder, I thought those questions were 
excellent, and I appreciate the input.
    Denny, based on my previous news story that I read, I hope 
that you contact--or go up the line of your supervision and 
remind them that they better make sure they are taking careful 
risks on that fire in Steamboat and that I would encourage--and 
I appreciate your taking the message; I am also taking the 
message--that they have standby slurry bombers if those 
firefighters get in a problem, because to me, it is a high risk 
statement, if in fact it is accurate, for the Forest Service to 
say they are not going to allow slurry bombers on what they 
admit could very easily become a blowup, which cost us those 
four firefighters a week and a half ago.
    Mr. Inslee?
    Mr. Inslee. I have no questions.
    Mr. McInnis. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman. Just briefly, as one 
who sponsored the Michigan Wilderness Act, which set aside 
about 100,000 acres of wilderness in Michigan, I have always 
been very interested in this. We discovered that not only do 
you retain the recreational value and the beauty of the area, 
but also, we are discovering in that 100,000 acres of Michigan 
that there are microorganisms deep in the soil that are unique 
to that particular area. We find microorganisms with genetic 
code that exists only there and can be found nowhere else. And 
I think that is one of the reasons to preserve certain areas 
just as they came from the hand of God.
    There are certain organisms with a unique genetic 
arrangement just in certain areas and nowhere else in the 
world. Higher than that, I have got a special designation for 
wilderness in one of the National Forests in perpetuity, 
although it is not under the Organic Wilderness Act, where 
there is a fern that grows in about a 14-acre spot, and that 
fern is unique in the whole world. So there is some unique 
genetic code among microorganisms, some unique flora and fauna, 
particularly the flora, that I think we do protect, even though 
we might be focusing more upon the beauty, the recreational 
value, so that people can enjoy that. There are other things we 
are preserving also in wilderness areas.
    Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Kildee, your statement is well-taken. I 
would point out for our guests that the geographical outline up 
there--this is very remote country. By its remoteness alone, 
that serves as a protection. And currently, the area is under 
protective management. It just does not have, quote, 
``wilderness protection.'' But that is very, very remote up 
there, but your points are well-taken. There are a lot of 
things that are worthy of that.
    If there are no further questions for the gentleman, I will 
go ahead and excuse you. Denny, thanks for coming up twice. We 
appreciate it. And please, as soon as you can, call your line 
of supervisors and tell them to keep an eye on that Steamboat 
situation, and I would hope that you would use whatever tools 
are available; available meaning accessible, not available 
pursuant to some restrictive interpretation of wilderness 
firefighting. Use whatever tools are available to make sure 
that that fire up in Steamboat, which is currently out of 
control, is contained with reasonable means.
    Thank you very much. I appreciate the courtesy.
    Mr. Bschor. Mr. Chairman, rest assured I will carry that 
message forward, and I want to thank the Committee for the 
opportunity today and remind the Committee also: we have over 
35 million acres of wilderness in the Wilderness Preservation 
System that the U.S. Forest Service has managed, and we intend 
to manage that to the best of our abilities.
    Thank you very much.
    Mr. McInnis. Thank you, Denny, we appreciate it.
    Mr. McInnis. Now, I think we will move on to our last 
panel. As I said, we have got to limit the time of the 
Committee today, so we do need to move rather rapidly.
    On panel four, we have a number of witnesses. Several of 
these witnesses have traveled a long distance, and I appreciate 
very much the effort and resources that you have put into 
coming here in front of us today. On panel four, we have 
Commissioner Mr. Newberry. James, thank you for coming. You may 
go ahead and come up to the table; Mr. Sill, Gilpin County 
Commissioner; Commissioner, thank you for attending. Is the 
Commissioner here? There we are. Go ahead and approach the 
table. I barely shook your hand on the way down. I was running 
the other direction. Mr. Smith; you are with the Sierra Club; 
and Sara Duncan. I have got to tell you: Sara Duncan was my 
professor in college. Mr. Smith is married to Heather McGregor, 
who was a wonderful reporter on the Western Slope, and if you 
ever want to have a fascinating speaker, have his wife come and 
talk about recycling. He and his wife fill one 55-gallon trash 
can a year. That is it. That is how much they recycle. Last 
year, his wife told me--Heather told me a couple weeks ago you 
guys had to clean the basement, so you may have to use two this 
year, and she felt terribly guilty about it. I regret to say I 
fill one a week. But at any rate, it is a fascinating 
discussion. So welcome, Steve.
    Mr. Smith. Thank you, sir.
    Mr. McInnis. It is good to see you.
    Why do we not start, Mr. Newberry, and let me just start 
out by preceding these comments: I have stressed--I think it is 
obvious from the previous discussion--the concerns that your 
county has and the fact that without meeting, and I commend you 
as strongly as I commend Mr. Udall; both of the parties 
involved here have spent a lot of time and energy trying to 
come to some compromise. I think that compromise is in the 
language that I have out there, of which we intend, Ms. Duncan, 
to modify to cover the Denver Water Board concern. But outside 
of that modification, I think we have got in place the language 
that will satisfy your board and the people that you represent 
as well as Mr. Udall.
    So with that in mind, why do you not go ahead? I would 
remind our witnesses, let us try and keep it in the 5-minute 
time limit if we can.
    Go ahead. Commissioner, thank you for coming.

  STATEMENT OF JAMES L. NEWBERRY, COUNTY COMMISSIONER, GRAND 
                        COUNTY COLORADO

    Mr. Newberry. Thank you, Chairman McInnis. And I am new to 
this process, so I came here prepared to read my testimony, and 
I particularly appreciate the conversation that you had 
earlier, and it seemed that we were getting straight to the 
point, and I love that. I hate for someone to sit in front of 
me and read to me. Do I have to do that, or do you want me to 
paraphrase my testimony or just get straight to the issue, 
which is Area 3.1?
    Mr. McInnis. Mr. Newberry, what I would suggest you to do 
is, submit your statement for the record, which means you do 
not have to read it, and go to your very specific points that 
you think are the most important and just have a discussion 
with us.
    Mr. Newberry. Thank you, sir.
    Mr. McInnis. If you feel comfortable doing that.
    Mr. Newberry. Thank you, sir.
    What I would do then is would ask that you--if you have the 
map that was attached to my testimony, this is the Forest 
Service Management Plan of the area in Grand County, and I also 
have a larger map that is on the easel here. If the public 
would like to see that, but I can work of this map if that is 
fine.
    Mr. McInnis. All right; and just refer to your numbers up 
there on this map. And if members of the audience want to or 
the reporters, you can come over to the side to take a look at 
that if you would like.
    Go ahead and proceed.
    Mr. Newberry. Okay; first, I will do just a brief history, 
and it came to Grand County's attention that wilderness was 
being proposed in Grand County. At that time, we got in touch 
with Congressman Udall, and he did come up and have public 
meetings with us. We debated the issue several times. We had 
public meetings. We actually started a process that now CCI is 
using, Colorado Counties, Incorporated. They are now using it 
as part of the process that you go through to submit wilderness 
through BLM land. So it is something that was kind of a 
groundbreaking effort, and we greatly appreciate Congressman 
Udall's participation with us in these public meetings and then 
the followup meetings thereafter.
    We believed we had come up with a solution, a process, and 
through the process, a compromise that would work for not only 
Grand County but the surrounding counties, our sister counties 
who were interested in going with the wilderness proposal.
    Basically, what we did was we looked at the Forest Service 
Management Plan, and if you look down at Area 4.3, I would like 
to address that area first, because that is the main concern of 
the people of Grand County. There has been a tremendous amount 
of historic use in that area: the Rogers Pass Trail was one of 
the historic trails coming into the county, used 11,000 to 
12,000 years ago; they were using this trail to come into the 
county. So it is not just a mountain bike trail. It seems to 
have gotten classified as this is an issue, because it is a 
mountain bike trail. No, it is a historical trail that comes 
into the county.
    And then, also, the Rollins Pass or the Corona Road; it has 
two different names, depending on which old-timers you talk to, 
but that has everything from the entryway where the first 
trains came through; that is where the first settlers came into 
not only Grand County but moving west. There has been timber 
harvests. There have been timber harvests in the area. There 
were towns up in this area that have now disappeared, but a 
tremendous historic value to Grand County.
    Now, there is more recreation in the area through mountain 
bike trails, cross-country ski trails. There is snowmobiling in 
that area. So when we talk about Grand County's lands that 
would be introduced into this, and we talk about the wilderness 
study area and those concerns that people have around that, I 
believe, and correct me if I am wrong, Congressman Udall, that 
we are basically talking about the area designated as 3.1. Is 
that a fair statement? Because even up in--through the Forest 
Service Management Plan and their recommendations, 1.2, for 
example, was--it was felt that that met the criteria for 
wilderness, so, as part of this bill, which we stand behind, is 
to add 1.2 into the Indian Peaks Wilderness. If you notice just 
above the Rollins Pass sign, that is designated as wilderness 
in that area, so we are hoping to combine that.
    Our fundamental belief is we went through this process with 
the Forest Service. It took us 5 years to come up with this 
plan. There was public input at that time, and this is what was 
recommended by the people who are the so-called experts in the 
field of managing our forests. These people came up with the 
plan. We want to put it into a protection area. Therefore, 
there could be no land swaps. There is no further development 
of the area. It is protected in that area, and in a protection 
area, we have some experience with that because of Boland 
Gulch, and that is in my testimony also. You have to come up 
with a way to manage a protection area.
    We thought this was a pretty slick alternative. We have 
come up with a protection area. We have saved the amount of 
acreage, and we already have a management plan right in hand, 
so we just put the two together, and it works well.
    Back to 3.1, and I will conclude: we did not want it to go 
into a wilderness study area basically because that is not what 
was in the management plan, and that is not what we had talked 
about, or we had not really addressed that issue when we had 
our public meetings. And Congressman Udall, in fact, we may 
have even missed--in some of our meetings, what we said was we 
do not object to going back and studying this area for 
wilderness as long as that goes through the Forest Service, and 
they bring up the process, and they go through that process, 
and we would be happy to assist in that process in the public 
hearings and those type things.
    But at the same time, we do not want it to go into a 
wilderness study area which, in fact, puts it into the 
management as wilderness without going through that process. So 
that is fundamentally where the difference is. We would also 
say that we would not want any restrictions that would not 
allow people to allow the Forest Service to go back and study 
that for a wilderness designation. So that is kind of where we 
are with the 3.1 area. I think the rest of it has worked out 
real well, and we are comfortable with the bill as amended, 
because I think it takes in all the considerations that we have 
asked for.
    Thank you.
    [The prepared statement of Mr. Newberry follows:]

  Statement of James L. Newberry, County Commissioner, Grand County, 
                                Colorado

    Before I begin my testimony, please refer to the map included in 
your packet. If you would please follow this map as I speak, I think I 
will be able to provide you with not only the flavor of this special 
area, but a small glimpse of its history as well.
    Some 11,000 to 12,000 years ago, it is probable that humans entered 
the area during periods of glacial retreat, and again approximately 
8,000 years ago. During warmer periods, Native Americans spent winters 
in the warmer foothills of the eastern slope, and sheltered valleys on 
Colorado's western slopes. Studies have shown that there were four 
different cultural complexes known to be present above timberline in 
the Indian Peaks area during these years. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Benedict, James B. The Fourth of July Valley, Research Report, 
No. 2., Center for Mountain Archeology, Ward, Colorado, 1981, p. 8.
---------------------------------------------------------------------------
    Native Americans, and later settlers, entered a majestic valley, 
now known as Grand County, via a pass which today is Rogers Pass (see 
section 3.1 on the map). This pass was used to transport goods into the 
settlers of the valley, as well as wild game to the mining towns of 
Black Hawk, Central City, and the growing metropolis of Denver. Early 
settlers found this route difficult at best, but it was the main artery 
of commerce. Ranchers in the area trailed domesticated cattle over this 
pass to the railhead in Black Hawk and Denver as late as 1923. 
<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Black, Robert C. III. Island in the Rockies - The History of 
Grand County Colorado, to 1930, Pruett Publishing Company, Boulder, 
Colorado. 1969.
---------------------------------------------------------------------------
    With the expansion of rail across the nation, this area was the 
first entry point of the railroad into Grand County and points west. 
The Rollins Pass rail line a.k.a Corona Pass, and later the Moffat 
Tunnel provided many a visitor a spectacular introduction to the 
majestic Rocky Mountains.
    Front range water providers rely on the pristine waters of the 
western slope, and use this area as a diversion point to transport 
western slope waters to the thriving communities on the front range.
    As you can see, the area that we are discussing today has been a 
critical transportation link to not only Grand County, but to 
destinations west. Today, U.S. Highway 40 over Berthoud Pass skirts 
this area and serves as a view point for James Peak itself. The Moffat 
Tunnel passes close by, running under the Continental Divide, and has 
replaced the historic Rollins Pass railway. Because of the diverse 
history of the area, it is important to place a designation on the area 
that not only protects its aesthetic and environmental contributions, 
but also recognizes the historical as well as present day uses.
    An additional benefit of the James Peak Wilderness process has been 
to open an avenue of mutual interest between Grand County and her 
sister county, Gilpin. The historic Rollins Pass a.k.a Corona Pass 
railway has fallen into disrepair. The Needles Eye Tunnel, through 
which the railway crossed the Continental Divide, is no longer 
passable. Both Grand County and Gilpin County have entered into 
conversation on how to re-open this historic route. This negotiation 
can be supported by the designations proposed by Grand County for the 
James Peak Wilderness and Protection Area.
    When Congressman Mark Udall first proposed wilderness designation 
for the James Peak Area, I and my fellow county commissioners, Bob 
Anderson and Duane Dailey, entered into a public information gathering 
process with no preconceived opinions. We were made aware of the Forest 
Service Management Plan that applied to this area, and began our 
education by familiarizing ourselves with the plan, how it originated, 
and what the designations within the plan meant. This plan had recently 
been completed and adopted by the Forest Service, and had years of 
study applied to its determinations.
    Our second step was to hold meetings to gather public input on the 
proposal. The first public meeting was held in the lodge atop Winter 
Park Ski Area, overlooking the proposed area. Congressman Udall 
attended and spoke to the gathering. Many people attended the meeting, 
and gave testimony. This meeting ended with a request for written 
comments and concerns to be forwarded to the Board of County 
Commissioners. Based on the comments, it was apparent that a majority 
of the public who were involved did not favor a wilderness designation 
for the entire area proposed.
    Grand County is the location of the first Protection Area 
Designation, known as the Bowen Gulch Protection Area. A Protection 
Area, like wilderness designation, must be approved by Congress. Unlike 
wilderness designation, a Protection Area has its own unique set of 
rules and regulations, designed to protect the area, while 
acknowledging historic uses. The Board of County Commissioners felt 
that a portion of the proposed James Peak Wilderness Area did not fit 
wilderness designation, but could be preserved with a Protection Area 
Designation. The Forest Service Management Plan supported this thought, 
as it designated this area as a Special Interest area (see area 3.1 on 
the map).
    Following the initial public meeting, Grand County held three 
additional public meetings, as well as five public negotiation sessions 
with Congressman Udall and/or his staff. The main issue of these 
negotiations was Congressman Udall's designation of area 3.1 as 
wilderness study area, and Grand County's opinion that area 3.1 should 
be designated as a Protection Area.
    However, area 3.1 had gone through wilderness study during the 
Forest Service Management Plan update, and was found not to carry the 
attributes necessary for wilderness designation. Grand County felt that 
the professionals employed by the United States Forest Service to make 
these determinations based on exact, approved criteria, were those 
whose input should be recognized in this matter. The public agreed with 
the determinations of the Forest Service during the public scoping 
process associated with the adoption of the Forest Service Management 
Plan. Grand County cannot agree with area 3.1 being designated as a 
wilderness study area. While Grand County would not oppose this area 
again being studied for wilderness designation if proposed during the 
next Forest Management Plan update, to so designate it now does not 
seem appropriate in view of the recent wilderness study determination.
    It should be noted that Grand County, while objecting to the 
wilderness designation for area 3.1, did propose wilderness designation 
for area 1.2. Area 1.2 was not proposed for wilderness designation by 
Congressman Udall, but had met the criteria for wilderness designation 
in the Forest Management Plan, and was recommended for that 
designation. Grand County proposed to add area 1.2 to wilderness 
designation, and this was done by Congressman Udall.
    Grand County feels strongly that any wilderness proposal should 
begin at the local level, gathering the comments from those who are 
most familiar with the area, and then proceeding up the ladder to those 
who ultimately make the determination. This method could shorten the 
time involved in a wilderness designation approval by highlighting 
concerns early on. Colorado Counties, Inc. has monitored Grand County's 
process, and has proposed the process be used in the proposed 
wilderness designation for B.L.M. lands in the west.
    Grand County wants to thank Congressman Mark Udall and his staff 
for the hours of work that accompanies his proposal. Congressman Udall 
was most gracious in listening to the issues of the County and its 
citizens, and trying to formulate a compromise that could meet the 
concerns of all involved.
    Senator Wayne Allard is to be praised for his participation in, and 
support of the process. His dedication to local input has allowed Grand 
County the ability to assist in the crafting of this important 
proposal.
    Congressman Scott McIinnis, whose western slope Colorado ties, have 
enabled him to grasp the big picture, and assist in moving this 
proposal to committee review has made an invaluable contribution to the 
process. His efforts are greatly appreciated.
    In conclusion, Grand County feels that Congressman Udall's proposal 
with the amendment proposed by Congressman McInnis provides protection 
to the entire James Peak Area. Area 3.1 can experience an equally high 
level of protection by designation of ``Special Interest'' (Protection 
Area) vs. Wilderness Study Area. The original proposal, with the 
amendment, incorporates the historic attributes of mining, logging, 
railroading, and travel, and recognizes the current uses of mountain 
biking, snow mobile access, and hiking. It stops land exchanges, and 
provides for professional management by the United States Forest 
Service. The James Peak Wilderness and Protection Area has the 
potential of setting aside a spectacular piece of Americana for 
protection in perpetuity. The citizens of Grand County support the 
passage of the James Peak Wilderness and Protection Area Act as set 
forth in the Amendment in the Nature of a Substitute to H.R. 1576 
offered by Congressman Scott McInnis.
    Thank you for you time this morning. Please accept a personal 
invitation from Grand County and its citizens to visit our beautiful 
county, and view that area you have the power to protect for all times, 
with the designation of The James Peak Wilderness and Protection Area 
Act as set forth in the Amendment in the Nature of a Substitute to H.R. 
1576.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4155.002
                                 
    Mr. McInnis. Thank you, Commissioner. Now, just one 
clarification: you said you are comfortable with the bill as 
amended. You are comfortable with the compromise language that 
we have discussed with you and have offered to Mr. Udall. It 
has not yet been amended technically, so I think that is what 
you are referring to; is that correct?
    Mr. Newberry. Yes, sir.
    Mr. McInnis. Thank you.
    Mr. Newberry. My inexperience comes through.
    Mr. McInnis. No, no, that is fine. I just wanted to, 
because we are on the record, clarify that. Thank you, 
Commissioner.
    Mr. Sill?

  STATEMENT OF WEB SILL, COUNTY COMMISSIONER, GILPIN COUNTY, 
                            COLORADO

    Mr. Sill. Good morning, Chairman McInnis.
    The first thing I have to do--well, good morning, 
Representatives. The first thing I have to do, sir, is ask you 
if I could have even two more minutes of time. I have two 
things to address for Clear Creek County and also--
    Mr. McInnis. Mr. Sill, I hate to interrupt you, but you are 
going to have to speak a little closer to that mike. Thank you.
    Mr. Sill. Yes, sir. What I was asking for, as I said, I am 
going to need just a touch more time, but I will do it just as 
fast as I can. I was asked by Clear Creek County to speak to an 
issue for them and then one by James also, so I am going to go 
just as quickly as I can on this. I did enjoy your speech last 
night on missile defense, incidentally.
    I need to touch a couple of bases. Before we ever did 
anything with this, and I go back a long ways on this. One of 
the very first conversations I ever had on this area was with 
Senator Allard. He said you get a consensus, he would work with 
me. So this goes back a long ways. I need to talk very quickly 
about what Clear Creek County and Gilpin County and, to a 
lesser extent, Boulder County--Boulder County has three 
Democratic county commissioners that were on board ever since 
David Skaggs originally introduced it, and to bring them back 
on board was very, very easy.
    Gilpin County and Clear Creek County are made up of one 
independent, one Republican--I happen to be the Republican in 
Gilpin County--and one Democratic county commissioner. We 
represent a spectrum of the voters of the State of Colorado, 
and our voters are split almost identical to that in those two 
counties. All six commissioners who have signed resolutions for 
wilderness have survived reelection, and I have been the one 
who was the most vehement and the most vocal about doing James 
Peak Wilderness, and my election results last time around were 
70 percent vote against opposition of several people.
    So this is an issue that my constituents care about a great 
deal. That being said, it does not mean that Clear Creek County 
came easy to this particular process. We discussed it for a 
long period of time, and it took a good deal of discussion to 
bring them on board. I need to talk to you just very quickly 
about what Gilpin County, what our commission in general looks 
like. We have the lowest combined tax rate in the State of 
Colorado. We paid off our justice center 10 and a half years 
early. We rebuilt 30 percent of our roads in the last 4 years; 
we are building a fairgrounds and recreational center, which we 
paid for in cash.
    The object is to give you an idea of the sense of the 
commissioners that are bringing forward their request for 
wilderness. Do we endorse every wilderness project that is out 
there? No, we opposed the BLM wilderness project last year. Do 
we endorse certain ones? Yes, we do. We endorsed James Peak. We 
are also opposed to the Forest Service selling off a bunch of 
wild land down along 285 in Park County. Is it in our county? 
No; we just thought it was in the general interest of the State 
of Colorado not to sell that off to population growth.
    With that, I need to very quickly move on to a couple of 
the things. What I wanted to do today was obviously to gain 
your support for the James Peak Wilderness proposal. And the 
James Peak Wilderness country has been talked about; it is a 
very wild and scenic and beautiful area that is located south 
of the Indian Peaks and south of Rocky Mountain National Park, 
two areas that Congress has already previously said deserve 
special protection.
    Gilpin County is a small Colorado county; actually, for the 
moment, we are the smallest county in the State of Colorado 
until Broomfield comes on board. We have 150 square miles, 
96,000 acres. We are saying that we want to give up 8,000 acres 
that is currently roadless along our western boundary, which is 
the continental divide, and turn those into the James Peak 
Wilderness area. The people of Gilpin County have enjoyed a 
rural lifestyle, and we wish to kind of keep that into the 
future. However, the demographers tell us that there are going 
to be 2 million more people come to the State of Colorado over 
the next 20 years. They say a million and a half of them are 
going to come in along the Front Range; half a million of them 
are going to go into the West Slope. So for every constituent 
you have right now, Mr. McInnis, you are going to have two in 
20 years.
    That population pressure greatly concerns the people of my 
county, who have seen the Pike's National Forest go Denver 
playground, and we do not want the James Peak country to become 
a multiuse playground of the Denver area. We believe, in fact, 
that is what will happen. Without wilderness designation, you 
guys can do one thing that the Forest Service cannot do, and 
you were talking about protection earlier. You guys can do one 
thing the Forest Service cannot do. You guys can make sure that 
that land cannot change without your authorization. It cannot 
go multiuse unless it comes back through you, and you take it 
out of the wilderness designation. My people want that kind of 
protection.
    Four years ago, I restarted the dormant James Peak 
wilderness process by creating a resolution of support for the 
James Peak wilderness area, and during the following years, not 
only have the Gilpin County Commissioners but a wide variety of 
people have spent a great deal of time working on this: the 
gentleman to my right; the gentleman to my left are two of the 
people who have spent a great deal of time working on this. A 
consensus for the protection of these lands has been achieved 
among the four affected counties, and that agreement should be 
respected.
    Several elements of this agreement require special 
consideration. There is going to be increased visitation on 
this site. Everybody with a pair of tan shorts in the United 
States is going to probably want to come out and hike it for 
awhile. And we realize that there is going to be a bubble here. 
We believe that Clear Creek County's request for service 
facilities in the Alice and St. Mary's Glacier need to be 
honored. Grand County's conclusion on the protection area is 
different than the other three counties, but their good faith 
difference and ideas should be respected in this legislation.
    Finally, the Needles' Eye Tunnel between Gilpin and Grand 
Counties should be reopened. Currently, the counties and the 
Forest Service maintain this road--really, the counties 
maintain this road for the Forest Service. Grand County 
maintains it to one side of the tunnel; we maintain it to the 
other side of the tunnel, but you cannot go through the 
Needles' Eye Tunnel at the current time. We would ask that you 
reopen this. Reopening it would have a slight economic 
advantage for Gilpin County and a major economic advantage for 
Grand County. Reopening the tunnel would allow motorized 
recreationalists additional opportunities to reduce some of 
their objections to the wilderness. But most importantly, what 
the tunnel would do, and this gets to the heart of what kind of 
wilderness this is; what the tunnel would do is it would allow 
people to move between the James Peak and the Indian Peaks 
country; people that are otherwise unable to make that trip, 
people who are from the flatlands who cannot walk up in that 
area; people who are old; people who are infirm; people who are 
too young to do it.
    We think that is a very, very important point, because 
approval of the James Peak Wilderness would create an unbroken 
chain of wilderness from the Snowy Range in Wyoming down to the 
Mount Evans Wilderness country.
    Mr. McInnis. Mr. Sill, let me interrupt you just for a 
moment. I have allowed you almost twice the amount of time that 
we are allowed, and I understand we are trying to get as much 
as we can, but in order for the other witnesses to be able to 
do it and we meet the time commitment of the Committee, I am 
going to have to have you summarize in about 10 seconds.
    Mr. Sill. You have got it, sir.
    Mr. McInnis. Thank you.
    Mr. Sill. The West is as much about mind and spirit as it 
is about geography. Large, wide open spaces create the Western 
spirit. The high lonesome; the wide open spaces develop a 
passion for independence, freedom and a self-reliant character; 
a love of land and country that create a special spirit in the 
Westerner. This spirit is essential to Colorado; essential to 
the West; and a necessary part of the American character. 
Today, I ask for your support for the James Peak Wilderness.
    Thank you.
    [The prepared statement of Mr. Sill follows:]
    [GRAPHIC] [TIFF OMITTED] T4155.005
    
    [GRAPHIC] [TIFF OMITTED] T4155.006
    
    Mr. McInnis. Thank you, Commissioner. I appreciate the 
fact--now, we are going to have a vote, so we are really going 
to have to expedite. I would caution the Committee, however, 
that if you go out to see the commissioner, do not wear tan 
shorts when you--
    [Laughter.]
    Mr. McInnis. Or you will be significantly discounted.
    Mr. Smith, you may proceed.
    Mr. Inslee. Mr. Chairman, can I--
    Mr. McInnis. Mr. Inslee?
    Mr. Inslee. I need to excuse myself, Mr. Smith, Ms. Duncan. 
I will read your testimony and hope that I can play a 
productive role here. Thank you very much.
    Mr. Smith. Thank you, sir.
    Ms. Duncan. Thank you.
    Mr. McInnis. Mr. Inslee, thank you. We appreciate it. Okay; 
Mr. Smith, and in order for us to get, Sara, both you and Steve 
in, we are going to go right to the 5 and then jump to the 5, 
and then, we are going to have to leave immediately for votes. 
Unfortunately, we will not be able to ask questions, because my 
guess would be we are going to have votes probably up until 
noon.
    So, Mr. Smith, you may proceed. Thank you for coming today.

  STATEMENT OF STEVEN W. SMITH, ASSOCIATE SOUTHWEST REGIONAL 
  REGIONAL REPRESENTATIVE, SIERRA CLUB, ON BEHALF OF COLORADO 
                       WILDERNESS NETWORK

    Mr. Smith. Thank you, Mr. Chairman and members of the 
Subcommittee for this opportunity to discuss and frankly to 
sing the praises of one of Colorado's spectacular expenses of 
wild lands, and thank you, Mr. Chairman, for your kind remarks 
of welcome.
    My name is Steve Smith from Glenwood Springs, Colorado. I 
am associate regional representative for Sierra Club and 
speaking on behalf of my organization and the other 200 
organizations that make up the Colorado Wilderness Network. We 
would like to strongly express our support for Mr. Udall's H.R. 
1576, the proposed James Peak area bill with one qualification 
that I will discuss in just a moment.
    We believe that this area has all the characteristics and 
more that reach the threshold of qualifying as an additional to 
the National Wilderness Preservation System. I have enjoyed 
over the last several years in a couple of different capacities 
working on this project and working on other projects where we 
extensively talked with local officials and local residents to 
try to find consensus on various public land matters. One 
example, when I worked for Congressman Skaggs for 12 years, was 
some very enjoyable work with county commissioners and local 
residents on the Spanish Peaks Area, and I think we came close 
to a conclusion on that, and then, in the following Congress, 
with your able leadership, Mr. Chairman, that became a 
designated wilderness, and we appreciate that followthrough.
    Similarly, during those years and the years since, I was 
able to work with the county commissioners from the four 
counties that have interests here and a wide range of interest 
groups to find variations on our different positions that could 
ultimately combine into a proposal that is best-suited to the 
area.
    I mentioned exception to Mr. Udall's bill, and that is the 
wilderness study area. We believe very strongly that the 
portion in his bill proposed for wilderness study area should 
be designated at this time as wilderness, as an addition to the 
Wilderness Preservation System. One of the concerns that the 
Grand County Commissioners have expressed to us, for example, 
is this has been studied extensively; it has been discussed 
extensively. To continue the study process is perhaps tiresome 
but certainly is longwinded, and in that sense, we would concur 
with these folks with whom I have enjoyed very much working and 
say that yes, we know what we need to know about this area. We 
know that it has wilderness characteristics. The Forest Service 
a few minutes ago confirmed that it has wilderness 
characteristics. So we believe the time is now to just go ahead 
and get that settled; designate that area in the southern 
portion of the Grand County lands as wilderness, and then, 
everybody knows where it is.
    We also appreciate the commissioners' recommendation for 
some additional lands both within and without of the old 
roadless area that might be better suited to a different 
designation. This special protection area designation is 
suitable for lands where there are roads or other activities 
that are incompatible with wilderness, but we think it is 
inadequate for those lands that fully have the characteristics 
for wilderness.
    We have worked with another variety of other groups in 
great variety to come up with boundary adjustments and language 
adjustments to make this the best package possible. We have 
worked with Grand County and trails associations there on the 
7-mile trail. We have worked on adjustments to the boundary to 
accommodate the Old Boulder Wagon Road; the proposals for 
trailhead facilities at the town of Alice; the activity needs 
for the Colorado Mountain Club along St. Mary's Glacier; the 
Bertha Pass Ski Area and two different accommodations for 
snowmobile use in this general area.
    We feel that the package, as put together, really takes 
care of a lot of people's needs. One additional example has 
been the Rogers Pass route, and while, indeed, as Commissioner 
Newberry mentions, it has a very extensive history of a variety 
of uses, the current discussion focuses on mountain bike use 
along that route. I mentioned to you one of the experiences 
from our conversations with these interest groups in a citation 
from a letter that the International Mountain Bicycling 
Association sent to you, Congressman, in which they note that 
we could endorse full wilderness instead of wilderness study 
area for the area at the southern part of the Grand County 
portion of this area if the boundary were changed to a point 
south of Rogers Pass.
    So again, here in this very example, we find opportunities 
where we can talk about some more adjustments and find 
additional support for wilderness from some of the people that 
have had concerns. This is a remarkable area. Whatever you are 
able to see from it or hear from it, those things do not 
qualify the lands themselves as wilderness. They are a 
remarkable place of glacial circs, of cascading streams, of 
high, high sweeping tundra, of deep, dark, ancient and old-
growth forests on both sides of the divide. The two sides 
really complement each other in composing what really should be 
a composite wilderness area, and we certainly appreciate your 
interest in this and encourage you to adjust the Congressman's 
bill to make the portion of Grand County also wilderness and 
then encourage Congress to pass this full measure.
    Thank you very much for your time.
    [The prepared statement of Mr. Smith follows:]

      Statement of Steven W. Smith, Associate Southwest Regional 
  Representative, Sierra Club on behalf of Colorado Wilderness Network

    Thank you, Mr. Chairman, and members of the Subcommittee, for this 
opportunity to discuss and, frankly, to sing the praises of one of 
Colorado's spectacular expanses of wild lands.
    My name is Steve Smith, and I am Associate Southwest Regional 
Representative for the Sierra Club, based in Colorado. I am speaking 
today in behalf of the Colorado Wilderness Network, a coalition of some 
200 environmental organizations, trade associations, chambers of 
commerce, and local governments who support additional wilderness 
designations in our fine state.
    The steering committee for the Colorado Wilderness Network is 
composed of delegates from Colorado Environmental Coalition, Colorado 
Mountain Club, Sierra Club, The Wilderness Network, and Western 
Colorado Congress.
    My own background includes a stretch of just over thirty years of 
environmental advocacy in Colorado. Since completing my undergraduate 
degree at Colorado State University, with a concentration in 
environmental policy studies, I have helped founded or worked for 
organizations dedicated to wilderness advocacy, recycling services, 
open space protection, and transportation.
    For twelve years concluding in 1999, I was employed as Senior 
Congressional Assistant to Congressman David Skaggs. During that time, 
I provided field research, helped draft legislation, and facilitated 
negotiations among local interest groups that resulted in permanent 
protection for North St. Vrain Creek and for new wilderness areas 
designated in the Colorado Wilderness Act of 1993. I provided similar 
assistance and work in preparing legislative proposals that later led, 
with the Chairman's able leadership, to wilderness designation for the 
Spanish Peaks Wilderness. Finally, I convened local negotiations and 
provided legislative recommendations for the first James Peak 
wilderness act, introduced by Mr. Skaggs in 1998.
    As a result of that latter experience, I learned much about the 
physical features of the James Peak area and, pleasantly, much about 
the people who live near and those who enjoy visiting it.
    The sweeping alpine tundra, clear pure streams that build from tiny 
snowmelt trickles to cascading streams, deep old growth forests, and 
prominent mountain peaks found in the James Peak area compose a 
quintessential example of America's wilderness. It is a place that 
readily deserves inclusion in the National Wilderness Preservation 
System.
    Readily viewed from several highways and back roads, accessible 
through several convenient trailheads, and yet almost completely 
untouched--and certainly undamaged--by human effects, this is a place 
that symbolizes Colorado's wealth in beauty while providing a 
refreshing respite from the pace, noise, and pressures of urban life.
    As a legislative means of protecting the rare and remarkable values 
of the James Peak area, we support support Congressman Udall's H.R. 
1576, the proposed James Peak Wilderness, Wilderness Study, and 
Protection Area Act. Our support for that act is subject to one 
qualifier, which I will discuss in a moment.
    Although the United States Forest Service, in its 1997 Revision of 
the Land and Resource Management Plan for the Arapaho and Roosevelt 
National Forests did not recommend the James Peak area for wilderness 
designation, it did acknowledge the many features of the area that are 
well suited to wilderness protection. The agency's basis for not 
recommending the area for wilderness designation comprised entirely a 
list of human activities and structures that may be seen or heard from 
selected parts of the area, but no real conflicts within the area.
    We assert that sights and sounds from outside an otherwise 
qualifying area should not be, and historically has not been, used by 
federal land managers as reason for disqualifying areas for wilderness. 
The sheer magnitude of the James Peak area--perhaps Colorado's largest 
remaining roadless expanse outside designated wilderness--along with 
its high elevation, inevitably means that one can see and hear faraway 
things from inside the area.
    These sights and sounds do not, however, alter the fact that the 
area is without roads, possesses unique geographic features, harbors 
high quality water sources, provides unique opportunities for solitude 
and exploration, and--perhaps most important--includes no potential for 
mining, timber harvest, road building, or other developments contrary 
to wilderness designation.
    Whatever one can see or hear from the James Peak area, it remains a 
wilderness, and it should be recognized as such by Congress.
    I mentioned that our support for Congressman Udall's legislation is 
qualified on one point. That point is the area proposed in the bill as 
a Wilderness Study Area.
    That Grand County portion of the roadless area is no less qualified 
to be wilderness than are those portions on the east side of the 
Continental Divide in Boulder, Clear Creek, Gilpin counties. The west 
side's more sweeping tundra, long valleys, and dark timber provide a 
perfect counterpoint to the rugged walls, glacial cirques, and high 
mountain meadows found to the east. Combined, the two sides make up 
what will be, and should be, a remarkable American wilderness.
    We support changes in Congressman Udall's legislation that would 
designate all of the James Peak roadless area, including that portion 
in Grand County, as wilderness.
    We understand that wilderness for the Grand County portion does not 
yet enjoy the level of support from local elected officials as is 
afforded the portions in the other counties, and we have spent many 
enjoyable hours and many thought conversations trying to better 
understand the concerns and preferences of those Grand County 
officials.
    Through all those discussions, however, I respectfully assert that 
we were never presented with any specific instance in which for which 
the area is not qualified to be wilderness. Rather, local officials 
have consistently stated their philosophical opposition to the concept 
of wilderness designations.
    If there are specific, physical, on-the-ground conflicts that would 
disqualify any portion of the James Peak roadless area from being 
protected as wilderness, we would be the first to propose boundary 
changes or other adjustments that recognize and accommodate those 
conflicts. In the absence of such specific problems, however, we find 
no justification for leaving the west side portion out of wilderness.
    Our members have walked and studied the James Peak roadless area 
extensively. For nearly seven years, we have actively discussed its 
features, its values, and its potential with all officials and citizens 
interested in it. We have sought compromise and other approaches to 
agreement on protecting the largest possible expanse of wilderness 
there.
    To that end, we have helped work out boundary changes and other 
mapping details, helped forge agreements and language that will 
accommodate a variety of uses and needs in and near the area, and been 
consistently available and open to more discussions of the same.
    After that effort and those experiences, we are more confident than 
ever that all of the James Peak area should be proudly designated as an 
outstanding, glorious addition to the National Wilderness Preservation 
System.
    We urge the Subcommittee to amend this H.R. 1576 to include the 
roadless lands in Grand County as wilderness, and then to recommend 
prompt passage of that improved legislation by the Congress.
    Thank you again, Mr. Chairman, for this opportunity to present our 
views on this remarkable place. I would be pleased to respond to any 
questions you may have.
                                 ______
                                 
    Mr. McInnis. Thank you, Steve, and I appreciate your 
coming. I will point out two things: one, the letter that we 
got from the mountain bike group seemed to point out to me that 
they would support it as long as their mountain bike trail was 
in there and did not look much beyond that. The other thing I 
would point out is that I want to make it very clear: this bill 
will not come up for markup in this Committee putting that into 
wilderness or into the study area. It goes into a protection 
area. I mean, that kind of compromise--and I mentioned that 
Jeff Berman with Colorado Wild, which is a pretty active 
organization, at least as quoted by the Denver Post, said he 
was prepared to support the establishment of a protection area 
versus a wilderness study or a wilderness area, even though 
that was not his preference.
    So, you know, this is the point we are at. We can really 
accomplish putting into wilderness what we really need to put 
into wilderness, but we have got to have that compromise 
language, recognizing the needs of Grand County. So I hope that 
your group would reconsider their position that it has. I mean, 
you have now taken it a step further. Now, you want wilderness. 
That seems to be going the wrong direction of actually 
realizing Mr. Udall's dream and the dream of your predecessor, 
et cetera, of getting it into wilderness.
    Sara, welcome, thank you.

  STATEMENT OF SARA DUNCAN, COORDINATOR OF INTERGOVERNMENTAL 
                  AFFARIS, DENVER WATER BOARD

    Ms. Duncan. Thank you; good morning. I am Sara Duncan; I am 
here today on behalf of the City and County of Denver Board of 
Water Commissioners. I would ask that my statement be read into 
the hearing record also, including the attachments.
    I want to thank particularly the staff of Congressman 
McInnis and Congressman Udall for working with us on our 
issues. They have been very helpful, and we appreciate it. We 
are not here to oppose the bill, but we are concerned both with 
the original bill and with the proposed amendment. So I guess 
you could say we do not like either of them, and I am sorry 
that we have to take that position. But one in four citizens in 
Colorado rely on their water supply from Denver Water. For that 
reason, as a large public water supply system, we need to have 
certainty in how we address what goes on where we have our 
delivery infrastructure.
    A large part of our delivery infrastructure is in the Ranch 
Creek area, which is in the protection area. We have two 
specific problems with the protection area: first, in both 
bills, off-road mechanized access is discouraged. In order to 
access, maintain and improve our system, we need to have large 
pieces of equipment to assist. Secondly, we do not have any 
idea of what a protection area means. This is a new 
designation, and it creates great uncertainty. We need to know 
what the scope and impact is.
    Therefore, we would ask that between 9,400 and 9,600 feet 
in elevation--
    Mr. McInnis. Sara, I hate to do this, and I apologize.
    Ms. Duncan. That is okay. I was just going to ask we would 
like to be excluded.
    [The prepared statement of Ms. Duncan follows:]

  Statement of Sara Duncan, Coordinator of Intergovernmental Affairs, 
                  Denver Water Board, Denver, Colorado

    Mr. Chairman McInnis and Members of the Committee:
    I thank Chairman McInnis for the opportunity to testify today. The 
Denver Water Board is a municipal corporation that supplies water to 
over one million people: that is one in four people who live in 
Colorado. Denver Water has important water collection infrastructure 
located in the James Peak Protection Area proposed in H.R. 1576 under 
discussion today. This testimony will describe these facilities, 
discuss their importance to the Denver Water system, and recommend 
treatment of these facilities in H.R. 1576. Denver Water does not 
object to the creation of a Protection Area, but needs assurance that 
its water infrastructure can continue to be accessed, maintained and 
improved.
    A road built by Denver Water in 1936 and known as the ``Water Board 
Road'' transverses the Protection Area on both Forest Service and 
private lands on a north/south axis. [See map attached hereto as 
Exhibit ``A''.] Adjacent to and under the road are Denver Water pipes, 
siphons, canals and diversion structures that comprise a part of the 
``Ranch Creek'' collection system that feeds into the west portal of 
the Moffat Tunnel. The Ranch Creek facilities are located 9400 to 9600 
feet in elevation and collect water that is delivered to the north part 
of the Denver metropolitan area via the Moffat Tunnel that runs under 
the Continental Divide. There are 2.4 miles of canal and pipes in the 
proposed Protection Area.
    There is another water system in the James Peak area. Denver 
operates Englewood's system that continues to the north of the Ranch 
Creek collection system. It appears some of Englewood's system and the 
Cabin Creek Reservoir site are included in the proposed James Peak 
Protection Area. Denver Water has not had sufficient time to ascertain 
Englewood's position on H.R. 1576, but there is understandable concern 
that the Protection Area designation not interfere with operation of 
Englewood's water system.
    The Ranch Creek collection system is a critical component of Denver 
Water's base water supply for several reasons. First, it has a 1921 
priority date. Second, the Ranch Creek dry year yield, that is the 
water supply during a drought, represents approximately 20% of the 
water deliverable through the Moffat Tunnel. Third, Ranch Creek 
provides water to the northern metro Denver contract water users of 
Westminster, Consolidated Mutual Water Company, North Table Mountain, 
Arvada, and others. Without the Ranch Creek water, supplies to the 
northern metropolitan Denver area would be significantly reduced. This 
is particularly true in dry years. Therefore, the significance of the 
Ranch Creek collection system cannot be diminished.
    Denver Water's ability to improve and maintain the Ranch Creek 
collection system is a high priority. Beginning in 1993, Denver Water 
has replaced about 7% of the Ranch Creek open canals with 84'' pipe to 
carry water. This activity is ongoing and requires mechanized access 
off road to remove existing concrete structures and replace them with 
pipe, to cover and revegetate the ground surface above the pipe, and to 
maintain existing siphons and diversion structures. Maintenance, 
upgrades and water collection efficiency in the future will continue to 
require off road mechanical maintenance, including the use of 
bulldozers, loaders, cranes, dump trucks and numerous other pieces of 
equipment. Denver Water has worked well with the Arapaho-Roosevelt 
National Forest Service under the 1997 Forest Management Plan to 
maintain and improve the Ranch Creek Collection system. Denver water 
must be assured of continued flexibility in meeting current and future 
needs in order to access, construct, operate and maintain water 
infrastructure for uninterrupted beneficial water use.
    Both Congressmen McInnis' and Udall's staff have been helpful in 
discussing the James Peak Protection Area giving assurance that 
Denver's concerns will be addressed. For this I thank them. There are 
two problems that need to be specifically resolved. First, the 
Protection Area limits mechanized access to designated roads and 
trails. Denver Water has a longstanding practice of using machinery in 
a reasonable manner off road to keep its system working. In fact, that 
is occurring even this summer. The second problem is no one is quite 
certain of the scope and impact of the ``protection area'' concept. As 
a water supplier, Denver Water requires certainty and flexibility that 
its critical water supply and supporting infrastructure can operate 
without interruption in a protection area. Rep. McInnis's excellent 
water right language in H.R. 1576 will protect Denver Water's 1921 
rights and restrict the imposition of by-pass flows. There is, however, 
no corresponding protection of existing water infrastructure, its 
access, improvement, replacement and maintenance.
    This goal can be easily accomplished by delineating the James Peak 
Protection Area so as to exclude Denver Water's roads and pipes. Denver 
Water would continue to operate with Forest Service supervision. As 
noted earlier, Denver Water and the Forest Service have worked well 
together to achieve Denver's goals at the same time being respectful of 
Forest Service needs and uses. Therefore, Denver Water's first request 
is that the sponsor consider excluding Denver Water' s Ranch Creek 
collection system, including all access roads, from the Protection 
Area. Exhibit ``A'' shows those areas between 9,400 feet and 9,600 feet 
on Forest Service property that could be excluded from the Protection 
Area. The total acreage so excluded from the 14,000-acre James Peak 
Protection Area is only 280 acres.
    Removal of Denver Water's property from this bill will maintain the 
status quo. Denver Water will operate under the Arapaho-Roosevelt 
Forest Management Plan. Water Board access will continue and the 
procedures for off-road access will remain in place. The certainty 
necessary to run a public water supply system will not be undercut by 
the uncertainty of an additional, untried land use designation. The 
Denver Water Ranch Creek collection exclusion does not create 
additional management or environmental problems for the Forest Service 
as it continues existing Forest Service oversight procedures. Further, 
the amount of acreage excluded is miniscule in comparison to the entire 
James Peak Protection Area. It should be noted that the justification 
for a protection area as stated by the Grand County Commissioners is to 
avoid further land exchanges in this area. This reason has no 
application to the Denver Water collection system or Water Board Road 
as these uses are firmly and historically settled. Finally, an 
exclusion based on elevation can be easily ascertained from 
topographical maps readily available to government officials and the 
public.
    If exclusion from the James Peak Protection Area is not acceptable, 
then language must be crafted to address the issues of water 
infrastructure protection, maintenance, improvement, access and 
procedural safeguards to assure continuous operation. It has been 
informally indicated by staff that this type of language could be 
drafted, but this has not been done. Due to the imprecision of language 
and incertitude of regulatory and judicial construction, I urge you to 
consider exclusion of Denver Water's considerable assets from the James 
Peak Protection Area. I look forward to working with you for quick 
resolution of these issues.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4155.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T4155.004
                                 
    Mr. McInnis. We have been advised we have 5 minutes, which 
is about the exact amount of time it takes us to get over 
there. I do want you to know this, that we were not aware of 
your concern at the time this was drafted.
    Ms. Duncan. Right.
    Mr. McInnis. So there was no intent to exclude the concerns 
of the Water Board. We certainly understand those needs, and we 
will work extensively with you to incorporate what is 
necessary.
    I want to thank all of you for coming today. Unfortunately, 
we have two votes in a row, which will exclude us from coming 
back and reconvening the Committee. I do know that Mr. Udall 
has some questions that he wishes to submit. What I would 
request is your participation and cooperation in responding to 
those in writing so that we can share it with the Committee.
    I thank the witnesses. This is the technical stuff: we will 
hold the record open for 10 days if there are any further 
responses. Having no further business, the Committee now stands 
in adjournment.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]


</pre></body></html>
